<html>
<title> - THE DECRIMINALIZATION OF ILLEGAL DRUGS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                 THE DECRIMINALIZATION OF ILLEGAL DRUGS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 1999

                               __________

                           Serial No. 106-115

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
64-343 CC                    WASHINGTON : 2000


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                 Gil Macklin, Professional Staff Member
              Sean Littlefield, Professional Staff Member
                          Amy Davenport, Clerk
                    Micheal Yeager, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 1999....................................     1
Statement of:
    Cohen, Frederick, graduate of drug treatment alternative to 
      prison program.............................................   233
    Constantine, Thomas A., former Administrator, Drug 
      Enforcement Administration.................................     7
    Glasscock, Bruce D., chief of police, Plano, TX; Sandra S. 
      Bennett, president, Drug Watch International; R. Keith 
      Stroup, Esq., executive director, the National Organization 
      for the Reform of Marijuana Laws; and Robert J. MacCoun, 
      professor of public policy and law, University of 
      California at Berkeley.....................................    46
    Hynes, Charles J., district attorney, Kings County, NY; 
      Katherine N. Lapp, New York State director of criminal 
      justice; and Barbara A. Broderick, State director of adult 
      probation, Administrative Office of the Courts, Arizona 
      Supreme Court..............................................   113
Letters, statements, et cetera, submitted for the record by:
    Bennett, Sandra S., president, Drug Watch International, 
      prepared statement of......................................    96
    Broderick, Barbara A., State director of adult probation, 
      Administrative Office of the Courts, Arizona Supreme Court, 
      prepared statement of......................................   152
    Constantine, Thomas A., former Administrator, Drug 
      Enforcement Administration, prepared statement of..........    14
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   112
    Glasscock, Bruce D., chief of police, Plano, TX, prepared 
      statement of...............................................    51
    Hynes, Charles J., district attorney, Kings County, NY, 
      prepared statement of......................................   116
    Lapp, Katherine N., New York State director of criminal 
      justice, prepared statement of.............................   130
    MacCoun, Robert J., professor of public policy and law, 
      University of California at Berkeley, prepared statement of    86
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................    35
    Stroup, R. Keith, Esq., executive director, the National 
      Organization for the Reform of Marijuana Laws, prepared 
      statement of...............................................    63

 
                 THE DECRIMINALIZATION OF ILLEGAL DRUGS

                              ----------                              


                         TUESDAY, JULY 13, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Hutchinson, Ose, Mink, 
Kucinich, and Cummings.
    Also present: Representative Sam Johnson of Texas.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Gil Macklin and Sean Littlefield, professional staff 
memebers; Michael Yeager, minority counsel; and Jean Gosa, 
minority staff assistant.
    Mr. Mica. I would like to call this meeting of the Criminal 
Justice, Drug Policy, and Human Resources Subcommittee to 
order. This morning the hearing is entitled ``The 
Decriminalization of Illegal Drugs.''
    We have other Members who will be joining us, I understand 
the ranking member is on her way, but we will begin so that we 
can finish on a timely basis. I will start with an opening 
statement, yield to others for their opening statements, I 
believe we have three panels today.
    Today, our Subcommittee on Criminal Justice, Drug Policy, 
and Human Resources will examine the controversial topic of the 
decriminalization of our narcotics laws. This hearing is one of 
a series of hearings that we intend to hold to examine our 
national drug control policy and also to determine its 
effectiveness.
    Last month, the subcommittee heard testimony from a number 
of important witnesses on the topic of narcotics legalization. 
Witnesses at that hearing included the Director of the Office 
of National Drug Control Policy, General Barry McCaffrey; the 
Director of the National Institute of Drug Abuse, Dr. Alan 
Leshner, and Donnie Marshall from the Drug Enforcement 
Administration.
    Additionally, we heard from the new Florida drug czar, also 
a former member of and staffer with the National Drug Control 
Policy Office, and a number of other nongovernmental witnesses 
who have testified before our subcommittee on this subject.
    Today's hearing should help buildupon that record begun 
last month. Some proponents of decriminalizing our drug laws 
have claimed that many of those in our jails and prisons today 
are incarcerated for minor drug use or for simple possession. 
Others claim that those in prison have a health problem versus 
a criminal problem and should be treated accordingly.
    As we have examined the effects of illegal narcotics, it is 
clear that drugs destroy lives. They help produce the felonious 
behavior and conduct we have seen: overdoses, fatal accidents, 
and death by criminal homicide. Drug overdose deaths continue 
to plague our metropolitan areas, both our suburbs and our 
inner cities, and our schools at every socioeconomic level 
today.
    Drug use is soaring among our young people. The latest 
national survey found that more than 50 percent of 12th graders 
had tried an illicit drug and more than one in four are current 
users. If the laws are evenly applied and enforced, half our 
young people would be eligible for jail time.
    The American public should understand the policy 
implications of decriminalization. Despite all the media hype, 
however, most young drug users, and for that matter very few 
drug use offenders, ever see the inside of a prison cell.
    In fact, one of the most recent studies analyzing the New 
York State prison population indicates that you really have to 
work hard to be in prison for drug use. The facts--and we want 
to deal with the facts today--also show that most of those in 
our State and Federal prisons are, in fact, repeat felony 
offenders or those have trafficked in large quantities of hard 
narcotics.
    Should Congress change the laws to take the criminal 
penalties out of these narcotic-related felonies? Today we will 
hear from a number of witnesses on this subject. We will hear 
from two witnesses who have important stories to tell about 
drug programs that appear to be producing results in New York 
State and in the State of Arizona. We will also hear from some 
nongovernmental witnesses who represent differing viewpoints on 
this issue.
    It is the contention of some that drug laws in this Nation 
are sending first time offenders to prison. The statistics 
tell, in fact, another story. In fact, virtually all convicted 
criminals who go to prison are violent offenders, repeat 
offenders, or violent repeat offenders. It is a simple myth, in 
fact, that our prison cells are filled with people who don't 
belong there, or that we somehow would be safer if fewer of 
these people were in prison.
    A scientific survey of State prisoners conducted by the 
U.S. Department of Justice found that 62 percent of the prison 
population has a history of violence, and 94 percent of our 
State prisoners committed one or more violent crimes or served 
a previous sentence of incarceration. Between 1994 and 1996, 
over 90 percent of all State prisoners were violent offenders 
or recidivists.
    The closer one looks into the criminal conviction history 
of prisoners, the clearer it becomes that there are almost no 
petty, nonviolent, or first time felons behind bars who pose no 
real threat to our public safety and who simply do not deserve 
to be incarcerated.
    According to another study, in 1994, California's prison 
population rose to over 125,000 inmates. Numerous experts and 
journalists insisted that the State's prisons were overflowing 
with first time offenders and harmless parole violators.
    The results of the California Department of Corrections' 
analysis of randomly selected felony offenders admitted to the 
State's prisons in 1992 and classified as nonviolent, revealed 
that 88.5 percent of these offenders had one or more prior 
adult convictions. The average number of prior convictions in 
fact was 4.7, and a fifth of these so-called nonviolent felons 
had been committed to prison once or twice before.
    A 1996 study of individuals imprisoned in Wisconsin found 
that about 91 percent of the prisoners had a current or prior 
adult or juvenile conviction for violent crime. None were 
sentenced solely for possession or as drug users, and fewer 
than 2 percent were first time drug or property offenders. Of 
these prisoners, 82 percent were eligible for discretionary 
parole within a few years.
    It is true that many of those in our State and Federal 
prisons are there because of drug-related offenses. Some have 
murdered, robbed or physically assaulted others while under the 
influence of hard drugs or while trafficking in significant 
quantities of deadly narcotics.
    Do we let these felons out of prison? Do we have adequate 
treatment for drug abusers and addicts who commit felonies 
while under the influence of drugs? Is this just a public 
health problem that medical professionals can solve?
    These and many other questions will be asked today as we 
address the topic of decriminalization. I look forward to 
today's hearing on this important topic. I want to thank our 
witnesses for taking the time to participate.
    That concludes my opening statement. I am pleased to yield 
at this time to Mr. Kucinich.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.001
    
    [GRAPHIC] [TIFF OMITTED] T4343.002
    
    Mr. Kucinich. Thank you very much, Mr. Chairman, and thank 
you again for holding hearings which focus on this important 
question. And to that, I would just like to simply add a 
question, because I don't know if I am here today with any 
answers.
    My question is, what is it about our society or individual 
experience which causes people to seek an altered reality? What 
is going on with our world that people try to find ways of 
escaping it through the use of drugs? I think that is a 
question worth pondering, whether it is going to be pondered in 
this particular setting or not.
    Thank you.
    Mr. Mica. I thank the gentleman. I would yield now to Mr. 
Hutchinson.
    Mr. Hutchinson. I thank the chairman, and I just want to 
express my appreciation for you holding this hearing. I believe 
it is an extraordinarily important subject that we need to hear 
about, but also to provide a tool of education for people in 
America to really look at this head-on and see the problems of 
moving in this particular direction.
    I also want to take the opportunity to welcome Mr. 
Constantine and express appreciation for the work that he has 
done as administrator of the DEA. I look forward to hearing his 
testimony on this very important subject.
    I yield back.
    Mr. Mica. I thank the gentleman, and we will turn now to 
our first panel, which consists of one individual who is known 
to all of us, Tom Constantine, who served an incredibly 
distinguished tenure as the Administrator of our Drug 
Enforcement Agency.
    I just want to say a few things while he is before us 
today, as I introduce him. During his 5 years as the head of 
DEA, he did, in fact, do a superb job of bolstering our 
national drug control efforts. He not only improved the 
quantity of agents that we have working but also the quality of 
the organization, the modernization of the agency's 
intelligence operation.
    He has been referred to as a law enforcement officer who 
has been applauded by almost every State, local, national and 
international organization for his incredible efforts. He has 
only been out of office a few days now, but already his 
presence and his leadership are missed.
    We are indeed privileged to have him before us today as a 
retired, former administrator. I think hearing his perspective, 
too, having served in that important drug enforcement position, 
will be especially enlightening.
    Again, sometimes when you come before us as a public 
servant, as the head of an agency, there are some constraints, 
there is some tempering, although I have never known Tom to 
temper his comments too much to us. He has always been frank 
and candid. But he is in a different role now, and we are 
delighted that he would voluntarily come back and testify. The 
topic before us is a difficult topic, but there has been much 
public discussion about decriminalization, and I think it is 
important that our subcommittee and Congress hear his 
perspective.
    Having been before us, Mr. Constantine, I think you know 
this is an investigations and oversight panel, so if you 
wouldn't mind, sir, even though you are no longer the 
Administrator, we are still going to swear you in.
    [Witness sworn.]
    Mr. Mica. With nothing but accolades for your past 
performance, your great service to our country and the drug 
enforcement agency, let me welcome you back, sir, and recognize 
you for your testimony today.

STATEMENT OF THOMAS A. CONSTANTINE, FORMER ADMINISTRATOR, DRUG 
                   ENFORCEMENT ADMINISTRATION

    Mr. Constantine. Congressman, thank you very much for your 
kind comments. They are very flattering, and I wish that half 
the things that have been said over the last 3 or 4 weeks were 
true, and then I would feel that I had been successful.
    However, I very seldom have been involved in discussions or 
debates on the legalization or decriminalization issue. The 
reason being, I always had a concern that it would be similar 
to deciding how much domestic violence we would tolerate, how 
much drunken driving we would tolerate, how much child abuse we 
would tolerate, and we would wind up compromising positions on 
the edges of the argument, and the eventual losers would be the 
young people of the United States.
    Unfortunately, during my 39-year career in law enforcement, 
both with the State Police of New York and now with the Drug 
Enforcement Administration, I have seen this cycle come one 
time before at least. When I first began my career in the 
1960's, drug abuse was a little-known problem within the United 
States. Very few people utilized drugs. It was not a burden on 
our criminal justice system, our social system. The individuals 
who were using narcotics tended to be addicted to heroin of 
low-level purity, in very small numbers.
    During the 1960's, I saw a great change occur in our 
society. I saw young people become involved in the use of all 
types of drugs, originally the so-called soft drugs--marijuana, 
hashish, hallucinogenic drugs--and there became almost a 
cultural divide between my generation and the generation that 
followed.
    Unfortunately, I watched as leading people in many of our 
universities and opinion leaders started to address narcotics 
and the use of narcotics as if it was a rite of passage, and in 
many ways that it was something that was a civil right, that 
people could do what they wanted with their own bodies. The 
availability of drugs in so many segments of our society over 
the last 30 years has created profound damage, I believe, not 
only to individuals, families, neighborhoods, but entire cities 
and sometimes our entire society.
    I think we have to make very, very clear the discussions 
and the arguments that are taking place. If you look at opinion 
survey after opinion survey over the last 30 years, 
continually, U.S. citizens are diametrically opposed to the 
legalization of drugs. So now we begin to hear words like 
``decriminalization'' and ``harm reduction,'' and when we start 
to consider those approaches, I think it is important to 
understand the ultimate goal of some of the advocates of 
legalization when they say ``harm reduction.''
    Last night, when I was going over my papers, I found a 
letter that had been sent to me by Mr. Ethan A. Nadelmann, who 
is from the Lindsmith Center in New York City, working for the 
Open Society Institute with Mr. George Soros as the president. 
He asked that I review an article he had published in the 
Foreign Affairs magazine that might be useful in my thinking 
about drug policy issues.
    One paragraph caught my eye, and I recall the term ``harm 
reduction'' something that I think you will hear again and 
again because it is a euphemism for legalization. Here is what 
Mr. Nadelmann thinks, and I read his own words, ``harm 
reduction'' means: ``Harm reduction innovation includes efforts 
to stem the spread of HIV by making sterile syringes readily 
available and collecting used syringes; allowing doctors to 
prescribe oral methadone for heroin addiction treatment, as 
well as prescribe heroin and other drugs for addicts who would 
otherwise buy them in the black market; establishing safe 
injection rooms so that addicts do not congregate in public 
places or dangerous `shooting galleries.' ''
    The last interesting comment caught my attention, 
obviously, quite vividly. Mr. Nadelmann recommends employing 
drug analysis units to be stationed at large dance parties 
called ``raves'' to test the quality and potency of the MDMA 
and Ecstacy drugs and other drugs that patrons buy and consume. 
He also recommends decriminalizing, but not legalizing, 
possession and retail sale of marijuana, and in some cases 
possession of small amounts of hard drugs, and integrating 
``harm reduction'' policies and principles into community 
policing strategies.
    That, I think, is a fairly clear indictor of some of the 
arguments that have been made and will be made. But there are 
some things that are obvious to me over all of this experience, 
that is, the advocates of decriminalization and legalization 
are mostly affluent, well-educated, and socially distant from 
the potential victims of their experiment. The legalization 
movement is well-financed, and has been spawned in the salons 
of the Upper East Side of New York and country clubs on both 
coasts of the Nation, locations remote from the realities of 
drug addiction, despair and the social decay that accompany 
drug use.
    The people who are always excluded from the legalization 
debate, and this is no accident, I think, are the mothers of 
addicted children, religious leaders, and the loved ones of 
those who have been victimized by crime and addiction. Law 
enforcement officials are also absent from the ranks of those 
who are calling for legalization, not because we have a vested 
interest in enforcing the drug laws of the United States--
nothing could be further from the truth--but because we have 
seen how dangerous and devastating drug use and trafficking 
have been, and unfortunately, in those very communities that 
suffer the most from social problems.
    I would like to make several points during my presentation 
today to show some additional insight as to just how misguided 
the legalization argument is. In order to do this as succinctly 
as possible, I would like to address head-on some of the issues 
that are pertinent to this debate. Because of my extensive 
experience in law enforcement, the majority of my comments will 
be focused in this area.
    First, it is important to recognize that the drug supply 
often drives the demand. Second, the enforcement of drug laws 
can and has had a significant impact on reducing the crime rate 
in the United States. And, third, there are far too many 
questions that remain unanswered by legalization advocates 
about the practical implementation of their social experiment.
    Often, legalization advocates claim that drugs should be 
legalized in order to satisfy what they characterize as 
America's insatiable demand for drugs. From my experience and 
the experience of the vast numbers of law enforcement officials 
that I deal with, it is clear that it is drug availability that 
often leads to increased usage.
    At the current time, communities in the United States are 
often being targeted by powerful international drug syndicates, 
presently from Colombia and Mexico. They have brought to the 
United States, cocaine in massive tonnage amounts, heroin of 
very high purity, and methamphetamine, a drug that was 
virtually unknown in the United States until about 6 years ago. 
All of it offered at low prices and high purity until such time 
as individuals become addicted to the usage of the drug, and 
then demand does perpetuate the source of supply.
    Today's heroin mortality rates are the highest ever 
recorded, exceeding even those of the mid-1970's when deaths 
reached a high point of just over 2,000 per year. Close to 
4,000 people died in each of the last 3 years from heroin-
related overdoses. That has taken a toll on a wide range of 
communities such as Baltimore, MD, which has unfortunately 
become the heroin capital of the United States, or Orlando, FL, 
and suburban cities such as Plano, TX, in the West, Seattle and 
San Francisco.
    The fact that increased drug supply leads to increased drug 
demand is also demonstrated by the skyrocketing surge in 
methamphetamine abuse throughout the United States. Before 
there became a large amount of methamphetamine available, there 
were over 4,900 emergency room episodes in 1991. As the drug 
became more prevalent and available, in 1997, we had 17,400 
emergency room episodes, a 280 percent increase, and this is 
spread across the entire United States.
    Second is the impact of aggressive law enforcement. Much is 
said about the issue of law enforcement and their ability to 
direct resources to focus on these problems of crime and 
violence. I watched, Congressman, as the State which I live in 
and am very proud of, New York State, went through a period 
from 1960 to 1990 where the violent crime rate deteriorated to 
levels that were almost unimaginable.
    In the city of New York, there were about 400 murders in 
1960. By the time we had gotten to 1990, there were over 2,250 
murders in that city. The armed robberies went from 7,000 to 
120,000.
    All of that changed in 1990. In the fall of 1990, a young 
man from Provo, UT was murdered in front of his parents in a 
subway station in Manhattan, and there immediately became a 
reaction to the problem.
    Previously, we were told in law enforcement that our 
strategies would not work, we could not arrest our way out of 
the problem, that prison was not the answer to these 
situations, nor were arrests. However, with added police 
resources in the city of New York, the arrests doubled over a 
period from 1994 to 1998.
    When that occurred, we watched the crime rate drop, so 
where there was 2,250 murders in New York City in 1990, the 
murders had gone down to just a little over 600 last year. If 
you add those homicide victims up cumulatively from 1990 to 
1998, if they had continued to be murdered at the rate that 
they were being murdered at in 1990, there are approximately 
6,700 people alive today in New York City who would not be 
alive had it not been for the active, aggressive use of law 
enforcement in that city, in that State.
    Even more amazing to me is the reduction in the so-called 
index crimes. We have a uniform crime reporting system in the 
United States, that all law enforcement agencies have to file 
the incidents that occur within their communities. It is 
murder, robbery, rape, manslaughter, assault, burglary, car 
theft, and I believe, arson.
    In New York City, and I have met with the leaders of the 
New York City Police Department, they focused on the violent 
drug gangs that were causing these immense problems within that 
city, and they doubled their arrests. They went from 64,000 
drug arrests in 1994 to over 130,000 drug arrests in 1998.
    What is the result? The index crimes have been cut in half. 
They went from 400,000 index crimes in 1994 to 200,000 index 
crimes in 1998. That means in that 1 year alone, in 1998, there 
are 200,000 less crime victims in the city of New York than 
there would have been if there had not been immediate use of 
law enforcement resources directed to that area.
    In fact, I am very proud to say that city, and that State 
which is my home, and as I said, I am very proud of it, has led 
the entire Nation in the reduction of crime. It has become one 
of the safest cities in the Union. A lot of that work is the 
responsibility of very professional, very active law 
enforcement.
    We also have done similar things within DEA. We have gone 
from community to community throughout the United States and 
targeted violent drug traffickers. I think it's important for 
everybody to understand, there is a nexus between drug use and 
violence, and drug trafficking and violence. Over 70 percent of 
all of the felons in most of our major cities who are arrested, 
are under the influence of drugs at the time of their arrest 
and during the commission of their crime.
    Second, those groups competing with each other in the 
violence that occurred, that have engaged in an enormous amount 
of homicides and assaults, in our program, we are able to 
demonstrate a 12 percent reduction in homicides in less than 6 
months. That means in just these small communities throughout 
the rural, suburban areas of the United States, over 130 less 
crime victims, 2,000 less robbery victims, 2,000 less assault 
victims.
    We believe that drug abuse, along with the combination of 
violent crime and social decay that accompany it, can be 
prevented. Too many people in the United States sometimes seem 
resigned to the inevitability of rampant drug abuse. However, 
effective prevention programs, effective law enforcement 
programs, and effective rehabilitation programs can improve 
that drastically, as we have been able to demonstrate over the 
past 7 or 8 years.
    Now, the reality is, the legalization opponents are telling 
Americans that drugs are not dangerous; that increased 
addiction is not a significant threat to America; and that the 
people living in the poor neighborhoods of our cities and 
communities will be better off because it is drug dealing, not 
drug use, that is the problem.
    There was a report released at 10 o'clock this morning by 
the National Center on Addiction and Substance Abuse at 
Columbia University. I read portions of the report last night. 
It is the most impressive treatise that I have seen on the 
entire area of the use of marijuana and the impact on young 
people.
    It finds that more teens age 19 and younger--and this is 
very important--enter treatment for marijuana abuse and 
dependence than any other drug, including alcohol. In fact, 
nearly as many teens and children were admitted to treatment 
for marijuana as were admitted for abuse and dependence on all 
other substances combined. So that most vulnerable segment of 
our society, teenagers up to the age of 19, are being admitted 
for therapy and rehabilitation and counseling for marijuana 
more than any other substance combined, including alcohol.
    They find that of the 181,000 teens and children who 
entered treatment in 1996, nearly half, 87,000 of them were 
admitted for abuse or addiction to marijuana alone; 35,000 were 
admitted for alcohol with a secondary drug; 21,000 for alcohol 
use. More than half the teens in treatment for marijuana were 
between the ages of 15 and 17.
    The paper goes on in a great deal of depth, and time does 
not allow me to present it all, and I probably would not be 
able to give it the appropriate treatment that it deserves.
    But it discusses in depth the issue of who goes to prison, 
who gets arrested, and what is the real story on individuals 
arrested for the possession of marijuana and other drugs, and I 
think you will see that it is an infinitesimal number of people 
in the Federal prison system and in the State prison system who 
have, as a first offense, nonviolent drug usage. In fact, in 
DEA, our marijuana cases, the average amount of marijuana per 
defendant convicted is over 300 pounds of marijuana.
    So the legalization advocates unfortunately are not telling 
the truth about the consequences of their proposal. It is not 
that they are purposely misleading Americans, but rather, they 
are not providing all of the information that is necessary for 
us to make a sound judgment on the issue.
    The logistics of legalization of drugs are overwhelming. 
Take legal pharmaceuticals, for example. Despite tough 
regulations and strict controls, these powerful and addicting 
legalized drugs, that have been tested again and again by the 
major pharmaceutical corporations, remain the most widely 
abused drugs in the country. Surely the same would happen if we 
were to legalize heroin, cocaine, and methamphetamine.
    There are many tough questions to ask legalization 
advocates. I believe many cannot be answered adequately. Some 
of these include: Will all drugs be legalized? Will we legalize 
marijuana, Ecstacy, hashish, hallucinogenics, cocaine, heroin, 
methamphetamine?
    Will we knowingly make dangerous, mind-altering addictive 
substances like crack cocaine and methamphetamine and heroin 
available to everyone? Will we, as a society, willingly and 
knowingly addict our citizens to a lifelong dependency on 
drugs, regardless of their age, regardless of their health, 
regardless of their profession, regardless of their past 
criminal record?
    How will we address the black market that will inevitably 
spring up to provide newer, purer, more potent drugs to those 
now addicted who cannot be satisfied with the product that they 
obtain by the government or the private sector?
    Simply, if we start to allow people to use heroin, as a 
government, and we know that they become addicted and they need 
more and more, in the sense of their dependency on that 
substance, will we continue to give as much heroin as they 
want, as often as they want? Once we say no, there is a limit 
that we will place on the amount of heroin we will give them, 
we now have an addicted junkie who wants more heroin than the 
government will provide, and as a result will be looking to 
many outside sources.
    Given the fact that our record with cigarettes and alcohol 
in this country is not very good, how will we limit the 
abundance of dangerous drugs to 18 or 21-year-olds? Who will 
pay for the health costs and the social costs which will accrue 
as a result of increased drug usage? Or do we have a store in 
the middle of the block that makes drugs available to people 
who want them, and then on the corner at the other end of the 
street, will we need a rehabilitation center and a therapy 
center, both of which are paid for by the government?
    Who will pay for the loss in productivity and the 
absenteeism in our society as a whole? Whose taxes will pay for 
the thousands of babies who are born addicted to drugs? What 
responsibility will our society have for these children as they 
grow and have problems as a result of their drug usage?
    Where will we set up these drug centers? I talked to a 
mayor of a major city in this country who I thought put the 
problem as succinctly as I have ever heard it placed.
    He said if the advocates for legalization think this is 
such a very good idea, why don't they start off with their 
family first and see, after a year or two, the impact of their 
family utilizing these substances? If then, they feel it has 
been productive and will be successful, let them then move to 
their own childrens schools or their own neighborhoods before 
there are any experiments that go further.
    Last but not least, if we are going to have a place that 
distributes and dispenses drugs, please do not place it back in 
my city, which has all of the social burdens that we have 
today. See how that will work in some of the trendy suburbs or 
some of the areas in the Upper East Side of Manhattan where 
many of these individuals live.
    Most legalization experts cannot answer this question: Can 
we set up a legalization pilot program in your neighborhood?
    These are all questions we should ask, and these are 
answers that we should demand. Granted, we have not effectively 
addressed all of the drug problems facing our Nation today, but 
we have made substantial progress and improved dramatically.
    From 1979 to 1992, the violent crime rate in this country 
has dropped at a rate that most would not have imagined 5 or 6 
years ago. If we could be as successful in reducing violent 
crime as we have been with the other diseases, the communicable 
diseases, cancer and heart conditions, whoever was responsible 
for that reduction in crime would probably be a recipient of 
the Nobel prize.
    We must also realize the drug issue is a very complex 
problem. It has been with us for decades. It will take more 
time for us to see our way clear. Despite this realization, it 
is astounding to me that legalization proponents advocate 
surrender.
    Our Nation is faced with other problems beside drug abuse--
AIDS, declining educational standards, homelessness--but we do 
not hear cries for us to abandon our efforts and surrender to 
inaction on these issues. Why is the drug issue different? We 
do not advocate giving up on our schools or negating everything 
we have done to date to find a cure for cancer, even though we 
have spent billions of dollars on research and we've not yet 
found a cure.
    In closing, I would have to say, as a sergeant with the New 
York State Police, a lieutenant, a captain, a major, I went 
from neighborhoods and eventually to cities and entire 
communities throughout our State. When I went to those 
communities that were suffering the most as a result of the 
drug problem, never once did I have a mother, a sister, a 
priest, a teacher come to me and say, ``Sergeant Constantine, 
Lieutenant Constantine, Major Constantine, what our community 
needs more than anything is drugs that would be available to 
our children in a legalization scheme, because that will 
improve our schools, it will improve their work habits, it will 
improve their study habits.''
    I think, because these parents have all the wisdom of 
generations and know that more drugs, freer drugs, more 
accessible drugs, will only lead to more addiction, more 
problems. They do not have a lot of the resources within their 
family wealth, their family background, to be able to solve 
those problems. We have a responsibility, those of us who have 
been very fortunate in life, some very successful, to make sure 
that our first and No. 1 priority is to take care of those who 
have been less successful and have limited resources.
    Thank you very much.
    [The prepared statement of Mr. Constantine follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.003
    
    [GRAPHIC] [TIFF OMITTED] T4343.004
    
    [GRAPHIC] [TIFF OMITTED] T4343.005
    
    [GRAPHIC] [TIFF OMITTED] T4343.006
    
    [GRAPHIC] [TIFF OMITTED] T4343.007
    
    [GRAPHIC] [TIFF OMITTED] T4343.008
    
    [GRAPHIC] [TIFF OMITTED] T4343.009
    
    [GRAPHIC] [TIFF OMITTED] T4343.010
    
    [GRAPHIC] [TIFF OMITTED] T4343.011
    
    [GRAPHIC] [TIFF OMITTED] T4343.012
    
    [GRAPHIC] [TIFF OMITTED] T4343.013
    
    [GRAPHIC] [TIFF OMITTED] T4343.014
    
    [GRAPHIC] [TIFF OMITTED] T4343.015
    
    [GRAPHIC] [TIFF OMITTED] T4343.016
    
    [GRAPHIC] [TIFF OMITTED] T4343.017
    
    [GRAPHIC] [TIFF OMITTED] T4343.018
    
    [GRAPHIC] [TIFF OMITTED] T4343.019
    
    [GRAPHIC] [TIFF OMITTED] T4343.020
    
    [GRAPHIC] [TIFF OMITTED] T4343.021
    
    [GRAPHIC] [TIFF OMITTED] T4343.022
    
    Mr. Mica. I thank the gentleman.
    Moving to our ranking member, do you have an opening 
statement at this time?
    Mrs. Mink.
    [The prepared statement of Hon. Patsy T. Mink follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.023
    
    [GRAPHIC] [TIFF OMITTED] T4343.024
    
    Mr. Mica. Also, we have been joined by Mr. Ose from 
California, and I see Mr. Johnson is here. Welcome, and I think 
you are going to introduce one of our next panelists.
    With that, I do have some questions for you, Mr. 
Constantine. First of all, again we thank you for stepping out 
and coming forward to testify today.
    Obviously, you come from the tough law enforcement side. 
You had some statistics that you have used before, particularly 
with New York City and the dramatic change in crime there. 
However, we're hearing more and more that this is not a 
comparable problem, that this is similar to Prohibition, when 
they tried to stop alcohol, it was made illegal in this 
country, and that it wasn't possible to enforce the laws.
    Can you tell us, do you view this as a valid analogy? We 
have had some reputable folks in the last set of hearings that 
we had from the CATO Institute, I believe it was, who said to 
legalize heroin, cocaine, and sell it like cigarettes or 
alcohol, that is controlled and regulated.
    Is this a prohibition problem that we're never going to 
solve, like alcohol?
    Mr. Constantine. I think the ultimate solution obviously is 
prevention programs. All of the studies that I have looked at, 
those that are most impressive claim the answer lies in the 
family. It lies in an intact family, it lies in established 
standards for children, it lies in communication. It's the 
responsibility of parents to talk to their children continually 
about their concerns about the dangers of drug abuse and 
utilization.
    And where all of those things are intact, the studies that 
I have read, which are very reliable, point out that 9 times 
out of 10, that young person will not become involved in using 
drugs in that vulnerable period between 13 or 14 up until 18 or 
19. If you get that far, you are pretty well satisfied that 
they will not become involved in the use of drugs, as they have 
a more mature outlook to life.
    So I have always supported, I am a great believer in the 
Partnership for a Drug-Free America. I am a great believer in 
Mr. Califano and the CASA Center at Columbia. I think they 
provide a major service to the people of the United States, and 
whatever we can do in the way of resources and assistance to 
help with prevention programs, I think over the long haul, 10, 
15, 20 years, will help us to improve this problem.
    In the meantime, we have a responsibility in law 
enforcement to make our communities safe. We have a 
responsibility to citizens who come to us and say, ``My son or 
daughter was sold drugs by individuals at a certain location 
who are profiting from this criminal enterprise,'' and ``My son 
or daughter is addicted and has been harmed, perhaps 
irreparably.''
    We have a responsibility as a society to bring those 
individuals to justice and to make sure, if they are found 
guilty, that they're sanctioned commensurate with the pain 
they've caused other people. I think that aspect of the 
strategy has been the most successful in this dramatic 
reduction of violence.
    But the long-term usage of drugs, people who are addicted 
to drugs, I believe, is a prevention program. I do not see the 
analogy with prohibition. It is a vastly different substance; 
it is a vastly different cultural issue.
    Mr. Mica. The other thing that prevails today is this 
belief that behind Federal prison walls, State prison walls, 
and local jails, are countless people who are there for simple 
possession of marijuana or some other substance, and that is 
why they are incarcerated.
    You had given us some statistics. I think you said 
something about the quantity of, for example, marijuana seized 
from Federal prisoners, averages 300 pounds. Geraldo Rivera did 
a piece a couple of days ago that showed a woman in tears who 
was in prison for only having 4 ounces of cocaine, I guess, and 
trafficking 4 ounces of cocaine.
    Is this a myth, or have we imprisoned innocent mothers and 
folks who possessed small quantities of drugs?
    Mr. Constantine. Let me address it from two perspectives. 
One, as the head of DEA, a Federal law enforcement agency, for 
the last 5\1/2\ years, virtually all of our investigations are 
geared to individuals who sell drugs at enormous profit, and we 
are trying always to reach the highest level of those criminal 
organizations.
    The only time that we tend to go for lower-level 
individuals is if these individuals tend to be involved in 
murders, robberies or assaults as part of their drug 
trafficking issue. So all of our defendants that we have are, 
for the most part, major dealers in narcotics. They fit the 
pattern.
    Mr. Mica. So in the Federal prison we would find what 
person, you know, charged with possession?
    Mr. Constantine. The actual figures, I presently don't 
have. They are in this report, by the way, from the Center on 
Addiction and Substance Abuse. I saw the figures last night. I 
don't want to quote them without reading them, and I don't know 
if I can find them fast enough for you, for this presentation. 
But as I recall, possession was like 1, maybe 1 percent, 1.5 
percent, mere possession.
    Mr. Mica. And some of those had----
    Mr. Constantine. My experience in New York State as 
superintendent of the State Police was, as I always said, it 
would be easier for a kid to get into Harvard, Princeton or 
Yale than it would be to get into the State prison system.
    When I worked on a sub-cabinet in the Governor's office, 
there was a second felony offender law in the State of New 
York, whereby individuals with a second felony conviction would 
have to go to State prison. There was a movement, for financial 
reasons and for a number of other reasons, to make that a third 
felony offender law.
    All I said was that we had better start telling these 
police officers that it is not serious until we get to the 
individuals who were the second felons who were going to get 
sentenced. They had 15 previous arrests, 9 or 10 misdemeanors, 
4 or 5 felonies, and that they fled to all different types of 
diversion programs to try to avoid putting them in prison 
before it became impossible to do that any longer.
    So I have had many interviews with individuals who were 
reporters and came to me, and I said, ``Look, if you find a 
prisoner in Attica who is serving time for a sole possession of 
marijuana, an ounce or 2 ounces or 100 marijuana cigarettes, I 
will buy you dinner in the best restaurant in Washington, DC.'' 
And I have yet to buy a dinner for any reporter.
    Mr. Mica. You also said that the drug supply drives demand, 
and you cited the problem of growing addiction where there is a 
liberal policy. I think in the past you have used Baltimore as 
an example. Maybe you could explain the difference between 
Baltimore and your New York experience?
    Mr. Constantine. In Baltimore in the 1950's, there were 
approximately 300 heroin addicts for 950,000 people. In 1998, 
there were about 39,000 heroin addicts in Baltimore for about 
650,000 people. The population has been reduced by 300,000 in 
the city. The eventual heroin addicts have gone from 300 to 
about 39,000. As I recall the figures, in the 1950's, there was 
one heroin addict for every 3,161 people in Baltimore. By the 
time we got to 1998, there was one heroin addict for every 17 
people in the city of Baltimore.
    To give you a sense of what that looks like, the overdose 
death rate for heroin in Baltimore is five times that of New 
York City. The homicide rate in Baltimore is six times that of 
New York City.
    I don't believe it is coincidental that the mayor of 
Baltimore has espoused the legalization of drugs; that there is 
a very soft attitude on the arrest or prosecution of low-level 
drug traffickers that has caused Baltimore to be a magnet for 
drug addicts and drug traffickers.
    Mr. Mica. So a very liberalized thought that essentially 
the problem goes away----
    Mr. Constantine. I mean, if somebody indicates that because 
it has been more lenient and more acceptable in Baltimore, that 
has solved the drug and crime problem, I don't think the 
experiment worked.
    I think it is important to note, too, that New York, along 
with a number of other States, decriminalized marijuana in the 
1970's. It, in essence, became, for low-level arrests for 
possession of marijuana, what was called an adjournment in 
contemplation of dismissal. If the individual did not get 
involved in other criminal activity for about 6 months, the 
charge was dismissed; and if they were younger, they could have 
that criminal record expunged and sealed.
    Now, I have to tell you, if that was the concept, that by 
decriminalizing marijuana in the 1970's, we would not have a 
more significant drug problem in the 1980's, the experience is 
exactly the opposite. We wound up with a huge drug problem in 
the 1980's, the State of New York, along with other States, I 
suspect.
    Mr. Mica. Thank you.
    Mrs. Mink.
    Mrs. Mink. Thank you very much. Welcome to our hearing 
today, Mr. Constantine.
    The subject of law enforcement is something that I am very, 
very committed to. It seems to me that the problem has to be 
dealt with harshly, and that the Congress and the Federal 
Government in general have to support stringent law enforcement 
activity in order to get to the nub of the problem, and so I 
certainly support the thesis that you have presented to the 
committee today.
    What troubles me is a city like Baltimore that you have 
just described, and the suggestion that perhaps the advocacy 
alone of more liberal policies toward marijuana has produced an 
even greater problem than they had two decades ago. My question 
goes to the fact that even if the city officials and others 
were moving toward a more liberal policy, wasn't the 
responsibility of the Federal Government the same there as in 
New York City or any other place?
    Mr. Constantine. Well, it was more than an espousing of a 
philosophy, which I think is--everybody is entitled to talk 
about, obviously, certainly, elected officials more than 
anybody else. That's their role in life.
    But this became an implementation of policy. The prosecutor 
would not prosecute individuals with under 29 dosage units of 
whatever the drug might be, so as a result, the police 
community had little role left to make arrests for low-level 
operations.
    People on the street, in the narcotics trafficking 
industry, pick that type of policy up in a strategy very 
quickly. When there is an absence of enforcement, it becomes 
apparent to them that there is no legitimate sanction.
    We have doubled the number of people that we had in the 
Baltimore office, trying to deal with, as I mentioned, we try 
to focus as often as we possibly can on the highest level 
dealers of heroin trafficking, as it would be in Baltimore, and 
the mid-level. The lower level street operations, there are 
just not enough resources in the Federal Government to be able 
to do that, other than to take it away from perhaps the bigger 
criminal organizations.
    Now, we did in Baltimore--I have a personal admiration for 
the police chief, I have worked with Chief Frazier a number of 
times--and we lent two of our MET teams, our Mobile Enforcement 
Teams, in the city to go after the violent drug trafficking 
organizations within the city of Baltimore, to try to assist 
them. And I think we do have a role, and obviously, as a city 
starts to suffer more than perhaps neighboring jurisdictions.
    It is important for me to note that not all of the addicts, 
by the way, are living in the city of Baltimore. What has 
happened, you now have middle class young people from the 
affluent suburbs of Carroll County and Harford County who are 
going into the city of Baltimore to purchase their drugs. So 
the industry has become something that is attractive to all 
types of people from different sites.
    My concern is that if you announce to drug traffickers that 
drugs should be legalized, if you adopt a strategy that you 
will not enforce the law at certain levels, I don't think it is 
coincidental--now, that obviously is a decision for the people 
who live in the city of Baltimore, not my decision--but I don't 
think it's coincidental that you wind up with these tremendous 
heroin problems, a homicide rate six times that of New York, 
and an overdose death rate five times that.
    Mrs. Mink. What was the level of success of the DEA 
enforcement activities in Baltimore, going after the big 
traffickers and those who were warehousing the drugs, if there 
was a lenient policy toward the people on the street and those 
who were using it, and you maintained a tough policy with 
reference to the big dealers? Couldn't or wouldn't that have 
made some impact on the distribution, if you were successful? 
Or did the local authorities impede your successes at the 
higher levels of distribution?
    Mr. Constantine. No, no. They did not impede, they 
cooperated, and the relationship between the police department, 
the DEA and other Federal agencies is very, very good. We went 
after every major trafficker that we could identify.
    Usually these big organizations that were responsible--in 
Baltimore much of the heroin comes down from New York City. It 
is Colombian heroin, it comes from Colombia usually to the 
Washington Heights area of New York City. Then it is brought 
down to Baltimore. We continually have tried to impact that by 
enforcement against those groups. Obviously, the problem still 
continues.
    I have always felt that to have an effective enforcement 
strategy, it has to touch all of the components, because if you 
just do one and then leave the others, if you were just to work 
low level and not work the mid level or high level, I don't 
think you are going to be successful.
    I believe the experience that I have seen in other cities 
throughout the United States, if you could focus on those drug 
trafficking organizations in the neighborhoods of Baltimore who 
are causing all this problem, I have no reason to believe that 
you would not be just as successful in Baltimore as they have 
been in New York City.
    It is not a magic strategy. It is not something that had to 
be invented in a laboratory. It was merely the identification 
of traffickers, block by block, neighborhood by neighborhood, 
and going after them and arresting them, and having reasonable 
sanctions or some type of rehabilitation if that is the 
appropriate strategy to be able to improve the situation. There 
is no reason why one city should have a homicide rate six times 
that of another city, and an overdose death rate five times 
that of another city. I think those problems can be addressed.
    Will that address the problem of people who are addicted to 
heroin? I think that is a prevention/rehabilitation issue that 
I am not an expert on, but I believe in both strategies.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Could you tell me the number of deaths, all categories, per 
year due to drug use? I saw the number on heroin of about 
1,300, 1,400 a year over the last 3 years. What about----
    Mr. Constantine. I believe it is 4,000 per year in each of 
the last 4 years. All drugs, cocaine, heroin, I don't have that 
exact figure available at the present. I can get that back to 
you.
    Mr. Ose. Rough, is it 5,000, 10,000?
    Mr. Constantine. I don't have that exact number presently. 
I would rather get back to you than----
    Mr. Ose. The reason I ask the question is that those who 
are a little older than me went through a period of time in the 
1960's where we were losing roughly 5,000 or 6,000 young people 
a year in the war in Vietnam, and I don't quite understand this 
sense of legalization of a product that equates to that kind of 
a mortality rate. I think you probably share that. If Vietnam 
was such a fiasco, why do people close their eyes to this and 
suggest legalization? Do you have any feedback on that?
    Mr. Constantine. I never looked at it from that particular 
perspective, but most of my feelings and impressions and 
thoughts on drug use and legalization are really from dealing 
with people in neighborhoods who are living behind three locks 
on their door, are afraid to go out to the corner grocery 
store, are afraid to go to a PTA meeting, have not a lot of 
money, and they can't send their child to some prep school in 
New England. Their child will have to get their education at 
the public school three blocks away, and if the drug 
traffickers, as they have, have taken control of those corners 
in many neighborhoods in various cities, those people are 
living as virtual prisoners.
    So all of my analysis of the legalization issue is, why 
would we want to visit more problems on people who, in my 
opinion, have far too many problems, and far too many problems 
that have not been addressed already by society, let alone to 
bring them down to the depths of further concerns for their 
children and themselves?
    Mr. Ose. I appreciate what you are saying, truly. I want to 
go on to the next item.
    On page 10 of your testimony you comment that drug use 
related to methamphetamine in Iowa contributes to an estimated 
80 percent of the domestic violence cases in Iowa. Am I 
correct? I mean, there is a nexus you can draw there?
    And if that is the case, why wouldn't we ask a question 
similar to that one I just asked about Vietnam, why would we 
legalize a product that not only diminishes one's individual 
capabilities on a day-to-day basis but also contributes to 80 
percent of the domestic violence? Why would I, as a lawmaker, 
ever agree to that?
    Mr. Constantine. Well, Iowa is, I think, a classic example 
of how supply creates demand. If you were to talk to anybody in 
Iowa in law enforcement 10 years ago about a methamphetamine 
problem in the State of Iowa, it would be nonexistent. People 
would talk about maybe some motorcycle gangs on the West Coast 
or a Hell's Angels club in the southern tier of New York.
    Now we find there are organized criminal groups out of 
Mexico and then California, operating out of California, who 
were able to get large amounts of precursor drugs and begin to 
sell methamphetamine at very low cost, relatively, and high 
purity. Then, as a result of the meat packing industry, in 
which very decent, hard-working people came from Mexico to earn 
money and send it back to their family, drug traffickers came 
in behind them and started selling methamphetamine at very low 
prices throughout the State of Iowa.
    There are now--if that last figure that you mentioned 
doesn't capture people's interest, then this one may--there are 
more methamphetamine arrests in the city of Des Moines, IA, 
than there are drunken driving arrests. I think all of us know 
someone, family or friends or neighbors, who have been arrested 
for drunken driving.
    One-third of all the children in Marshalltown High School--
which is a rural county northeast of Des Moines, I have met 
with all of the fantastic people from this community--have 
experimented or tried methamphetamine. They have a huge 
addiction problem that was created by increased supply, and 
that has been, to a degree, part of my perception of this 
issue.
    If we make methamphetamine more available to more people, 
more accessible, there is no doubt that more people would 
utilize these drugs. I have never, never used any of them. I 
have talked to doctors, I have talked to people who have been 
in this business. They say the patients tell them that these 
drugs are the most pleasurable experience that you could ever 
imagine when they first begin to use them, and it is not 
unreasonable to think that people, with those drugs accessible, 
will use more of them in the future.
    Those are all of the reasons why I argue against 
legalization, or what they now call ``harm reduction,'' which 
is really the same thing.
    Mr. Ose. I need a professional person's response to the 
following question. That is, if we increase the supply of 
methamphetamine, either through legalization or otherwise, are 
we going to see an equivalent increase in the amount of 
domestic violence?
    Mr. Constantine. I can't tell you. I can't tell you if 
there would be a straight line correlation. With 
methamphetamine I think you would see significant increases in 
domestic violence, because the properties of that particular 
drug and the physiological impact of that drug on people is 
different than anything we had seen before, even more 
exacerbated than crack cocaine. People tend not to eat or 
sleep, they become delusional, paranoid, and incredibly 
violent. It is a problem for police officers trying to arrest 
individuals, either on routine traffic stops or in domestic 
violence situations. Yes, I think you would see a fairly 
dramatic increase in domestic violence where that drug was used 
more freely.
    Mr. Ose. Mr. Chairman, as usual, you have been very 
generous, and I thank you.
    Mr. Mica. Thank you. We have been joined on the panel by 
Mr. Johnson from Texas.
    Mr. Johnson of Texas. Would you allow me to ask a question, 
Mr. Chairman?
    Mr. Mica. Without objection, go right ahead.
    Mr. Johnson of Texas. Thank you. I would just like to ask a 
couple or three quick questions. You have been talking about 
the major cities. I think your last answer was an eloquent 
reply as to why we don't need to legalize these drugs, based on 
what you just said.
    But I am thinking of the border areas which you haven't 
mentioned, at least I haven't heard you. I have been down 
there. It is a veritable sieve, where drugs are coming through, 
not just in Texas, but in Arizona, New Mexico and California.
    I am told that--as an ex-DEA guy, maybe you can tell me--
Customs and the Border Patrol don't really coordinate and work 
together down there very well. Is there a problem with split 
police or enforcement down there?
    Mr. Constantine. Well, it is tough to say historically what 
happened. Before I got to Washington, I heard many of the same 
concerns on the part of people, of Federal law enforcement 
agencies not cooperating with one another, and I made one of my 
No. 1 goals, as the administrator of DEA, to improve our 
relationship and cooperation with not only the other key 
Federal agencies but State and local law enforcement, and I 
think a lot of those areas have passed now.
    We see the Border Patrol as very important. They act as a 
tremendous resource for the seizure of narcotics, especially at 
the checkpoints they set up away from the border, because a lot 
of the substances are coming right across the river, and then 
eventually the checkpoints, because they have to move it in 
bulk. We also see this Operation Pipeline where we have the 
highway interdiction that is very, very effective in seizing a 
lot of these substances.
    We actually have Border Patrol officers stationed in DEA 
offfices, to be almost, from my view of things, like the 
uniformed force to help all of the detective agencies, Customs 
and DEA and the FBI. We have co-located our offices with the 
FBI in El Paso, which is the hub crossing from Juarez and very, 
very important.
    I signed an agreement to cross-designate over 1,000 Customs 
agents, and for the first time, the DEA and FBI signed a 
memorandum of understanding to make sure all of these cases are 
coordinated one with the other. I don't see it as the problem 
that it was once reported to be. I think they have been very 
effective and very successful.
    Mr. Johnson of Texas. Are we stopping it at all? I mean, 
you know, we talk about the war on drugs, and I am not 
convinced that we are fighting it as a war.
    Mr. Constantine. Well, two things. I have testified before 
Congress, the use of the term ``war'' is an analogy that for 
somebody who grew up as a young boy in World War II, and at 
least watched some of it, over 12 million of our young people 
volunteered or were drafted into the service; that people who 
stayed home went without various food and cars and commodities. 
There was a belief that we were united in many ways against a 
common enemy.
    In those indications, people who would have talked about 
giving up in World War II, in essence capitulating to a 
dangerous adversary, would obviously have been either have been 
considered a treasonous or certainly placed in a situation 
where nobody would want to deal with them.
    Now, we have in essence, an adversary. The adversary is 
drug traffickers and drugs, and we still have some people who 
would like to surrender, would like to capitulate. I am not 
sure we have made the sacrifices that we need as a society to 
be able to improve the situation.
    You may not have been here earlier. I testified that the 
key component to protect young people in the area of drug abuse 
is the family, a strong, intact family. Unfortunately, I am not 
so sure everybody wants to sacrifice, even at the family level, 
all that they need to sacrifice in order to make sure that kid 
gets a great chance at life.
    Mr. Johnson of Texas. I hear you.
    Mr. Constantine. So I have always tried to stay away from 
the ``war'' analogy. Our seizures have gone up dramatically 
along the border. We have gone from 105 tons of marijuana in 
1992 to about 858 tons of marijuana in 1998. But the key is not 
seizing drugs alone, because they are really an infinite 
commodity. It is overproduced for the amount that can be 
utilized. What's not infinite are the criminals and the 
criminal organizations, so we try to focus on them as our 
priority.
    Mr. Johnson of Texas. Yes, that is where I think you should 
be. Can you tell me, in your opinion, if our HIDTA's are doing 
any good?
    Mr. Constantine. Yes, we have HIDTA's in virtually every 
location throughout the country right now. We have DEA 
supervisors who work on that. We have intelligence centers.
    We just opened our new academy about a month and a half 
ago. We have--I am sure that my successor will continue that--
we have dedicated 50 beds in that academy for intelligence 
training. A lot of that will go for intelligence officers 
assigned to HIDTAs. So we have a universal system of analyzing 
this problem and our reaction to it.
    So, yes, they have been successful. They are different. If 
you go to New England and ask what the HIDTA looks like, it is 
going to be dramatically different from the HIDTA on the 
border, but I think it reflects the concerns of that community.
    Mr. Johnson of Texas. Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Johnson.
    Do you have any questions of Mr. Constantine?
    [No response.]
    Mr. Mica. We want to thank you for coming forward today and 
providing your perspective, Mr. Constantine. We have enjoyed 
working with you, and look forward to your future participation 
and your incredible knowledge on the subject of drug 
enforcement. We will probably be asking you to come back and 
provide our subcommittee with assistance in the months and 
years to come, so thank you again for your service and for your 
testimony.
    Mr. Constantine. Thank you very much, all of you, for the 
gracious treatment I have received these past 5 years.
    Mr. Mica. Thank you.
    I would like to call our second panel this morning, Chief 
Bruce Glasscock, the chief of police from Plano, TX, and we 
will have a further introduction in just a minute.
    We have Sandra Bennett, president of Drug Watch 
International. We have Mr. R. Keith Stroup, executive director 
of the National Organization for the Reform of Marijuana Laws. 
And we have Mr. Robert MacCoun, who is a professor of public 
policy and law at the University of California at Berkeley. I 
see three. Mr. Stroup.
    Let me explain the ground rules. I think most of you are 
new in testifying here. This is an investigations and oversight 
subcommittee of Congress, and we swear in our witnesses, so the 
first order will be, if you don't mind, to stand and be sworn.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative, and we 
are pleased to have each of you here. We only had one 
individual in our first panel so we didn't run the timing 
light, but if you have a lengthy statement or additional 
information or data that you would like submitted for the 
record, within reason, we will do that by unanimous consent 
request. And if you will just ask, we will grant that.
    We have Mr. Johnson here, who is a Representative, of 
course, a Congressman from Texas and the Plano area, and I will 
let him, if he would, introduce his witness.
    Mr. Johnson of Texas. Thank you, Mr. Chairman. It is indeed 
a pleasure to introduce Chief Bruce Glasscock. He is head of 
the police department in my home town, which is Plano, TX, and 
the chief has run the Plano Police Department since August 
1990. Prior to that he served as chief of police for Fort 
Collins, CO, and as an officer in both Lakewood, CO, and St. 
Petersburg, FL.
    Overall, Chief Glasscock has spent over 30 years of his 
life serving in the field of law enforcement. He holds a 
Bachelor's degree in criminal justice management from the 
Metropolitan State College in Denver, and a Master's degree in 
public administration from the University of Colorado.
    Apart from his current duties serving the citizens of 
Plano, TX, Chief Glasscock is also the current vice president 
of the International Association of Chiefs of Police. As the 
head of law enforcement in a city that has seen the all too 
tragic effects of drug use by our Nation's teenagers, Chief 
Glasscock, I think, offers a unique perspective, and I am 
grateful that he has agreed to share his experience and 
expertise with this committee.
    We have had some terrible problems in the city of Plano, 
and thanks to his leadership and guidance, along with the other 
city officials, and the State and local officials in the 
surrounding cities, and the fact that we have established a 
HIDTA in the Dallas area now, we have helped solve some of the 
problems. So I would like to welcome him here today, and thank 
you for having him as a witness, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Johnson. And we welcome you, Chief 
Glasscock. We will hear from you first. We have two folks who 
are on the pro, and two I guess on the con side of this issue 
on this panel, and we will recognize you first, chief, for 5 
minutes. Welcome.

 STATEMENTS OF BRUCE D. GLASSCOCK, CHIEF OF POLICE, PLANO, TX; 
  SANDRA S. BENNETT, PRESIDENT, DRUG WATCH INTERNATIONAL; R. 
     KEITH STROUP, ESQ., EXECUTIVE DIRECTOR, THE NATIONAL 
 ORGANIZATION FOR THE REFORM OF MARIJUANA LAWS; AND ROBERT J. 
  MacCOUN, PROFESSOR OF PUBLIC POLICY AND LAW, UNIVERSITY OF 
                     CALIFORNIA AT BERKELEY

    Chief Glasscock. Good morning, Mr. Chairman, members of the 
subcommittee, and thank you, Congressman, for the kind 
comments. I am pleased to be here this morning to share my 
experience in combating drug abuse and my views on the question 
of drug legalization.
    The issue of drug legalization is of great concern to those 
of us in the law enforcement community. It is my belief the 
nature of our profession provides law enforcement officials 
with a unique insight into the ravages caused by the abuse of 
narcotics and other dangerous drugs. These experiences have 
clearly demonstrated to me that this Nation should not be 
considering legalizing drugs, but rather we should increase our 
efforts to combat drug traffickers and assist those individuals 
who have become addicted to drugs to break the cycle of 
addiction.
    Over the last few years, my position as chief of the Plano 
Police Department has provided me with a first-hand look at the 
problems and dangers that accompany drug abuse. The recent 
heroin overdose death of former Dallas Cowboy Mark Tuinei 
received extensive national media coverage. Unfortunately, it 
was not the first such occurrence in Plano. Our community was 
faced with a series of events involving heroin overdoses which 
resulted in our taking an aggressive plan of action in dealing 
with drug abuse.
    In June 1995 the city of Plano experienced its first 
heroin-related death. Additionally, between 1995 and 1996, our 
detectives noticed an increase in burglaries being committed by 
heroin addicts to support their addictions. During this same 
time period, local hospitals reported seeing about six 
overdoses a week, some of which resulted in death.
    Between 1995 and year to date 1999, there have been 18 
heroin overdose deaths related to Plano in some fashion. We had 
one in 1995, three in 1996, nine in 1997, three in 1998, and 
two deaths so far in 1999. The victims of these deaths were not 
your stereotypical drug addicts. The average age was 20 years, 
with a range of 14 to 36, and if you were to take the high and 
low, the average was about 18 to 19. Most were young adolescent 
white males; most considered your average all-American kid.
    Because of the rise of incidences of heroin overdoses, in 
early 1997, the Plano Police Department adopted a multifaceted 
strategy to attack the heroin crisis. First, we undertook 
aggressive enforcement action to identify and prosecute those 
responsible for supplying the heroin. The police department 
joined with the DEA, FBI, Texas Department of Public Safety and 
other local agencies in a coordinated effort.
    Because of this effort, 29 individuals were indicted on 
Federal charges of conspiring to distribute heroin and cocaine, 
as well as charges of contributing to heroin overdose deaths. 
Another of our enforcement actions involved an undercover 
operation in our senior high schools, which resulted in the 
arrest of 37 individuals on 84 cases of narcotics violations. 
We believe our enforcement actions have greatly reduced the 
amount of heroin being sold in the Plano community and the 
number of heroin overdoses.
    The second part of our strategy involved using education as 
a means to reduce the demand for heroin. The DEA's demand 
reduction specialist, who provided us with guidance in demand 
reduction, spoke at community meetings and helped utilize the 
media effectively, assisted us in this effort.
    During this time, our department hosted several community 
meetings, the largest occurring in November 1997. This meeting 
was attended by more than 1,800 citizens and was televised and 
covered by the national and local media as well as the city 
cable television network.
    Our education efforts would not have been successful if it 
were not for the cooperation of our Community Task Force, 
Plano's Promise, and many other community organizations not 
affiliated with the police department. These community 
organizations provided education programs within our high 
school groups, PTAs, neighborhood associations, church and 
parent groups.
    In addition to the above-mentioned strategies, our 
department is involved with several organizations that are 
working to continue the fight against drug abuse. These 
organizations strive to prevent drug usage through education as 
well as intervention.
    The department is currently involved with Kick Drugs Out of 
America, a school-based program designed to teach children the 
skills needed to resist drug and gang pressure. This program is 
in addition to our department-run D.A.R.E. program, which also 
teaches elementary school children the risk of drugs and how to 
resist peer pressure.
    We are currently working with a nonprofit organization in 
Florida that offers home drug testing kits to families. This 
organization offers a free and anonymous way for parents to 
find out if their children are using drugs. If the child tests 
positive for drugs, Drug Free America provides the family with 
support organizations in or near the community to help with 
intervention efforts.
    Our statistics show a clear reduction in the number of 
heroin overdose deaths, as well as hospitals reporting a 
reduction of in overdose cases, which leads to the conclusion 
that our strategy is working. Our continuing investigations 
also show a reduced availability of heroin on the streets in 
our community.
    Unfortunately, the battle is not over. Our drug risk 
assessment continues to show the north Texas area is a major 
hub for shipment and distribution of a variety of illegal drugs 
by Mexican drug traffickers. These drugs include 
methamphetamine, heroin, cocaine, and marijuana.
    The porous Texas-Mexico border has 1,241 miles of frontier 
that challenge all of our resources. Since the enactment of 
NAFTA, the major ports of entry have experienced approximately 
a 30 percent increase in legitimate commercial and passenger 
traffic. The number of vehicles inspected has increased, but 
the overall inspection rate has decreased, affording new 
opportunities for smuggling. Our statistics also show that 
since the passage of NAFTA in 1992, Texas has the highest 
volume of drug trafficking in the Nation. All of this directly 
impacts local communities located along the NAFTA 
transportation corridors, and will continue to do so in the 
future.
    This massive effort represents what just one city faces and 
has gone through to combat the flow of drugs into its community 
in order to protect its citizens. Plano is not unique. Similar 
scenarios are being repeated in communities throughout our 
Nation. Combined strategies like the one I have just described 
to you are expensive, complex to manage, and sometimes 
controversial. However, they are working.
    Unfortunately, if those who favor legalization have their 
way, our efforts to reduce crime and protect our children from 
the horrors of drug abuse will be wasted. It is a simple fact: 
Increased drug abuse and increased crime go hand-in-hand. It 
makes no difference whether the user can purchase their drugs 
legally or not, they must still find a way to pay for them, and 
the way most drug addicts finance their habit is through crime. 
Eventually, they will do one of two things, they will either 
steal or deal.
    This is not just speculation on my part. A 1996 study 
conducted by NIJ clearly demonstrated drug users are more 
likely to be involved in criminal activities. Findings 
indicated that a median 68 percent of arrestees test positive 
for at least one drug at arrest, and in 1995, the study 
revealed that 31 percent of both male and female arrestees 
reported they were under the influence of drugs or alcohol when 
they committed their crime. It also indicated that 28 percent 
of inmates arrested for homicide were under the influence of 
drugs when they committed their crime.
    In 1986, during the midst of the crack epidemic, violent 
crime reached a level of 617 violent crimes per 100,000 
citizens. As we experienced a continuing escalation of drug-
related violence, this figure rose in 1993, to 746 violent 
crimes for every 100,000 citizens. In response, an outraged 
public joined together with government leaders to challenge the 
escalating violent crime.
    As a result of these efforts, new enforcement programs were 
implemented in the 1990's that began to reverse this trend. In 
recent years, we have seen a decrease in the violent crime rate 
in many communities--such as New York, Boston and Houston--
attributable to aggressive law enforcement efforts and the 
incarceration of criminals. We know vigorous law enforcement 
actions aimed at criminal activity, including illegal drug use, 
can have a material effect on reducing violent crime.
    After making progress against violent crime during the last 
several years, we should not erode these gains by instituting 
policies such as the legalization of drugs which we know will 
increase drug use and drug-related crime.
    In addition, aside from the fact that legalization will 
lead to an increase in the level of crime and violence in our 
communities, it also has terrible consequences on our citizens 
in other ways. Drug-related illness, death and crime are 
estimated to cost Americans $67 billion a year. That translates 
into every American having to pay $1,000 per year to carry the 
cost of health care, extra law enforcement, car crashes, crime, 
and lost productivity.
    Drug use also impacts on the productivity of America's 
workers. Seventy-one percent of illicit drug users are 18 or 
older and employed. In a study conducted by the U.S. Postal 
Service, the data collected shows that among drug users, 
absenteeism is 66 percent higher and health benefits 
utilization is 84 percent greater in dollar terms when compared 
against other workers.
    Public safety is another critical factor. The National 
Highway Traffic Safety Administration reported 18 percent of 
2,000 fatally injured drivers in seven States had drugs other 
than alcohol in their systems.
    I trust it is clear by now why other law enforcement 
officials and I believe the legalization of drugs is wrong. It 
is a wrong course for our Nation to take. Drug legalization 
will lead to increased crime, a decline in economic 
productivity, significantly increased burden on an already 
strained health care system, danger to those traveling on our 
highways, and perhaps most tragically, it sends a message to 
our children that drug use is acceptable.
    A recent study by the Partnership for a Drug Free America 
showed that as young Americans perceive that drugs are 
dangerous, drug use drops proportionately. Conversely, as young 
Americans get the message that social disapproval drops, as 
they hear in the legalization debate, drug use increases.
    Drug use in America was reduced significantly between the 
year 1985 to 1992. Since 1992, and until just recently, the 
amount of antidrug messages has decreased. As recently retired 
DEA Administrator Constantine once said, ``As a Nation we took 
our eye off the ball and began to get complacent about drugs.'' 
Drug use among our young people began to rise again in 1992.
    The legalization movement and the growing destigmatization 
of drugs, along with the confusing message we are giving our 
young people, will result in further decreases in the 
perceptions of risk, and I believe a concurrent increase in 
drug use among our youth. Within this atmosphere, it is very 
difficult, if not impossible, to reach children and convince 
them that doing drugs is bad.
    We must not make it easier or more acceptable for today's 
young people to start down the slippery slope from drug 
experimentation to drug addiction. We, as a Nation, must 
continue to clearly and unequivocally state that drug use is 
dangerous, drug use is unhealthy, and drug use is illegal.
    This concludes my statement, Mr. Chairman. I thank you for 
the opportunity to appear here today, and I will be happy to 
answer any questions that you have.
    [The prepared statement of Chief Glasscock follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.025
    
    [GRAPHIC] [TIFF OMITTED] T4343.026
    
    [GRAPHIC] [TIFF OMITTED] T4343.027
    
    [GRAPHIC] [TIFF OMITTED] T4343.028
    
    [GRAPHIC] [TIFF OMITTED] T4343.029
    
    [GRAPHIC] [TIFF OMITTED] T4343.030
    
    [GRAPHIC] [TIFF OMITTED] T4343.031
    
    [GRAPHIC] [TIFF OMITTED] T4343.032
    
    [GRAPHIC] [TIFF OMITTED] T4343.033
    
    Mr. Mica. Thank you, and we will withhold questions until 
we have heard from all of the witnesses.
    We will hear next from R. Keith Stroup, executive director 
of the National Organization for the Reform of Marijuana Laws. 
Mr. Stroup, you are recognized, and welcome.
    Mr. Stroup. Thank you, Mr. Chairman, and members of the 
committee. NORML, for nearly 30 years, has been a voice for 
those Americans who oppose marijuana prohibition. We are a not-
for-profit, public interest lobby, and we attempt to represent 
the interests of the millions of otherwise law-abiding 
Americans who smoke marijuana responsibly.
    As I have summarized in my written testimony, when Congress 
first outlawed marijuana in 1937, it was the result of a 
campaign of extraordinary misinformation and ignorance in which 
it was alleged that marijuana caused insanity and violence and 
turned average people into savage killers who knew no fear and 
lost all inhibitions. This claim of ``reefer madness'' 
continued for decades, and can still be heard from some 
quarters today, including occasionally from this Congress.
    It is time for Congress to move beyond the ``reefer 
madness'' phase of marijuana policy, where elected officials 
simply try to frighten the American public into supporting the 
status quo by exaggerating the dangers presented by marijuana. 
Most Americans know the difference between marijuana and more 
dangerous drugs, and most Americans oppose spending $25,000 a 
year to lock up otherwise law-abiding marijuana smokers.
    In fact, if marijuana were truly dangerous, we would know 
it today. There is a sizable segment of our population who are 
current recreational marijuana smokers, and there would be 
epidemiological evidence of the harm to our citizens. No such 
evidence exists, despite millions of people who have smoked 
marijuana for years and years.
    So, while of course we need to fund more research on 
marijuana, it should be directed toward marijuana's potential 
to alleviate pain and suffering for seriously ill patients. We 
certainly know enough now to know that marijuana is relatively 
harmless when it is used responsibly by adults.
    It is time for Congress to get beyond ``reefer madness,'' 
to end what has really been a crusade against both marijuana 
and marijuana smokers, and to begin discussing this subject in 
a rational manner. In particular, we need to expand the 
parameters of the discussion in Congress on marijuana policy to 
include, first, decriminalizing the marijuana smoker; and, 
second, legalizing and regulating the sale of marijuana to do 
away with the black market.
    Let me speak for a moment about who smokes marijuana today 
in America. It is time to put to rest the myth that marijuana 
smoking is some sort of fringe or deviant activity engaged in 
only by those on the margin of society. In reality, marijuana 
smoking is extremely commonplace, and it is the recreational 
drug of choice for millions of middle class, mainstream 
Americans.
    According to the government's own surveys, as many as 70 
million Americans have smoked marijuana at some time in their 
lives; 18 to 20 million have smoked within the last year. 
Marijuana is the third most popular recreational drug of choice 
in this country, exceeded in popularity only by alcohol and 
tobacco.
    Like most other Americans, the vast majority of marijuana 
smokers are otherwise law-abiding citizens who work hard, raise 
families, contribute to their communities, and pay taxes. They 
are indistinguishable from the their non-marijuana-using peers 
except for their use of marijuana.
    Thirty-two percent of the eligible voters in this country 
acknowledge they have smoked marijuana at some point in their 
lives. This includes many successful business people and 
professional leaders, including many State and Federal elected 
officials. Many Members of Congress have conceded they have 
smoked marijuana: former Speaker Newt Gingrich; the President 
of the United States; the Vice President of the United States.
    It is time to reflect that reality in the legislation that 
Congress passes on marijuana. Congress needs to acknowledge 
this constituency exists, and stop legislating as if marijuana 
smokers were dangerous people. In fact, marijuana smokers are 
simply average citizens who happen to smoke marijuana.
    Unfortunately, our current enforcement policies seem to 
target marijuana smokers. According to the FBI, in 1997, the 
last year for which data is available, there were nearly 
700,000 Americans arrested on marijuana charges, 694,000. Of 
those, 87 percent were for simple possession, not for sale. 
Right now, we have a marijuana smoker arrested every 45 seconds 
in this country, and 43 percent of all of the drug arrests that 
occur in this country are for marijuana.
    Despite criticism from some in Congress, and I believe from 
some on this committee, that President Clinton has somehow been 
soft on crime, in fact the data suggest that the Clinton 
administration has waged the most aggressive war against 
marijuana smokers of any Presidency in history. Marijuana 
arrests have doubled since President Clinton took office, and 
at the same time there has been a 51 percent decline in the 
arrest of cocaine and heroin sellers.
    Now in 1972, there was a blue ribbon panel created by 
former President Richard Nixon. It was chaired by former 
Republican Governor Raymond Shafer from Pennsylvania. The 
commission recognized that more harm was being caused by 
marijuana prohibition than by the use of marijuana itself. They 
recommended that State and Federal laws be changed to eliminate 
penalties for marijuana smokers and for small transfers of not-
for-profit amounts. This report served instantly as a basis for 
the decriminalization laws that were passed during the 1970's 
in 11 States.
    What former President Jimmy Carter said in 1976 to Congress 
still holds true today: ``Penalties against drug use should 
never be more damaging to an individual than the use of the 
drug itself. Nowhere is this more clear than in the laws 
against possession of marijuana in private for personal use.''
    Led by Oregon in 1973, 11 American States adopted modified 
versions of decriminalization, where a citation and a small 
fine were substituted for an arrest and jail. Approximately 30 
percent of our population in this country live under 
decriminalization laws, so we have experience. We know what 
happens with decriminalization.
    And the only Federal study that has ever been done to 
compare usage rates in those 11 decriminalized States, versus 
the States where they still arrest and jail marijuana smokers, 
concluded that decriminalization had absolutely no impact on 
usage rates. It did not lead to an increased use of marijuana.
    Decriminalization laws are also popular with the voters, as 
evidenced by a State-wide vote in Oregon in 1998, in which 
Oregonians voted 2 to 1 to reject a law previously passed by 
their State legislature which would have reimposed criminal 
penalties against marijuana smokers. Clearly and resoundingly, 
the voters in Oregon said, ``We don't want to spend our tax 
dollars arresting and jailing marijuana smokers.''
    In conclusion, it is time that we adopted a marijuana 
policy in this country that recognizes the distinction between 
use and abuse, and which recognizes and reflects the importance 
we have always placed in this country on the right of the 
individual to be free from the overreaching power of the State. 
Most would agree that the government has no business knowing 
what books we read, what music we listen to, the subject of our 
telephone conversations, or how we conduct ourselves in the 
privacy of our bedrooms.
    Similarly, whether one smokes marijuana or drinks alcohol 
when we relax is simply not an appropriate area of concern for 
the government. By stubbornly defining all marijuana smokers as 
criminals, including situations in which adults are simply 
smoking marijuana in the privacy of their home, government is 
wasting valuable law enforcement and prosecutorial resources, 
we are clogging our courts, we are filling our jails and prison 
cells with nonviolent drug offenders, and most importantly, we 
are needlessly wrecking the lives and careers of hundreds of 
thousands of genuinely good citizens every year in this 
country.
    It is time that Congress acknowledges what millions of 
Americans already know: There is absolutely nothing wrong with 
the responsible use of marijuana by adults, and it should be of 
no interest or concern to the government. In the final 
analysis, this debate is only incidentally about marijuana. It 
is really about personal freedom.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Stroup follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.034
    
    [GRAPHIC] [TIFF OMITTED] T4343.035
    
    [GRAPHIC] [TIFF OMITTED] T4343.036
    
    [GRAPHIC] [TIFF OMITTED] T4343.037
    
    [GRAPHIC] [TIFF OMITTED] T4343.038
    
    [GRAPHIC] [TIFF OMITTED] T4343.039
    
    [GRAPHIC] [TIFF OMITTED] T4343.040
    
    [GRAPHIC] [TIFF OMITTED] T4343.041
    
    [GRAPHIC] [TIFF OMITTED] T4343.042
    
    [GRAPHIC] [TIFF OMITTED] T4343.043
    
    [GRAPHIC] [TIFF OMITTED] T4343.044
    
    [GRAPHIC] [TIFF OMITTED] T4343.045
    
    [GRAPHIC] [TIFF OMITTED] T4343.046
    
    [GRAPHIC] [TIFF OMITTED] T4343.047
    
    [GRAPHIC] [TIFF OMITTED] T4343.048
    
    [GRAPHIC] [TIFF OMITTED] T4343.049
    
    [GRAPHIC] [TIFF OMITTED] T4343.050
    
    [GRAPHIC] [TIFF OMITTED] T4343.051
    
    [GRAPHIC] [TIFF OMITTED] T4343.052
    
    [GRAPHIC] [TIFF OMITTED] T4343.053
    
    [GRAPHIC] [TIFF OMITTED] T4343.054
    
    Mr. Mica. Thank you for your testimony, and now I would 
like to recognize Mr. Robert MacCoun, professor of public 
policy and law at the University of California at Berkeley. 
Welcome, and you are recognized. I hope I pronounced that 
correctly?
    Mr. MacCoun. MacCoun, that is correct.
    Mr. Mica. Thank you.
    Mr. MacCoun. Thank you for the opportunity to testify. I 
ask that my written testimony, which is longer, be entered into 
the record.
    Mr. Mica. Without objection, that will be made part of the 
record.
    Mr. MacCoun. My name is Robert MacCoun. I am from the 
University of California at Berkeley. My collaborator is Peter 
Reuter of the University of Maryland.
    I am here today to summarize some conclusions from our 
study of drug control alternatives funded by a grant from the 
Alfred Sloan Foundation to the Rand Corp.'s Drug Policy 
Research Center. Rand is a nonprofit institution that helps 
improve policy and decisionmaking through research and 
analysis. The opinions and conclusions expressed today are my 
own, and should not be interpreted as representing those of 
Rand or any other agency sponsoring the research.
    I should also mention an earlier statement by the Chair 
suggested that there were two pro and two cons here. I am not 
here in an advocacy role today. My purpose today is to try to 
inform the debate by talking empirically about what we know 
about these policies.
    Mr. Mica. Well, thank you. I just made that----
    Mr. MacCoun. That is quite all right. It is understandable.
    Mr. Mica [continuing]. Comment and I stand corrected. It 
never happened before, but you are the first.
    Mr. MacCoun. Thank you. I am proud to be part of that 
first.
    The empirical base is strongest for analyzing marijuana 
decriminalization, weaker for marijuana legalization, and quite 
weak for the legalization of cocaine or heroin, so I will focus 
today mostly on what we know about marijuana.
    Decriminalization refers to the elimination or substantial 
reduction of penalties for possession of modest drug 
quantities. In a decriminalization regime, the sale and 
manufacture of the drug remains illegal. Marijuana has been 
decriminalized in 11 United States States, in some regions of 
Australia, and in the Netherlands, Italy, and Spain.
    The available evidence suggests that marijuana 
decriminalization has either no effect or a very small effect 
on marijuana use. Survey analyses in decriminalizing States 
have found either no change in marijuana use or an increase 
that was slight and temporary. Cross-State comparisons have 
found no difference in adolescent marijuana use in 
decriminalizing versus non-decriminalizing States. The 
conclusion that marijuana decriminalization has little or no 
effect is bolstered by studies finding no effect of 
decriminalization in South Australia and in the Australian 
Capital Territory.
    Our statements about marijuana decriminalization should not 
be generalized to marijuana legalization. Legalization goes 
beyond the decriminalization of user possession to allow some 
form of legally regulated sale and distribution. We know of 
only one contemporary example that comes close, and that is the 
Dutch model.
    In compliance with international treaty obligations, Dutch 
law states unequivocally that cannabis is illegal, yet in 1976, 
the Dutch adopted a formal written policy of nonenforcement for 
violations involving possession or sale of up to 30 grams. That 
has been reduced to 5 grams in 1995. Not only are prosecutors 
forbidden to act against users, but a formal written policy 
regulates the technically illicit sale of those small amounts 
in licensed coffee shops and nightclubs.
    The Dutch decriminalization of possession per se had no 
detectable effect on marijuana use, consistent with evidence 
from the United States and from Australia. But in the mid-
1980's there was a significant increase in the number of 
tolerated commercial sales outlets for marijuana.
    We believe this shift from mere decriminalization to de 
facto legalization was associated with rapid growth in the 
number of users, an increase that was not mirrored in other 
nations during that same time period. That increase might have 
been coincidental, but it's consistent with other evidence that 
commercial promotion of a vice will increase consumption of 
that vice.
    Dutch heroin and cocaine use numbers are not particularly 
high by European standards, and a smaller fraction of marijuana 
users go on to use those drugs in the Netherlands than in the 
United States. There's no evidence that Dutch cannabis policy 
has resulted in any increase in property crime or violence, and 
claims that it has are simply not credible.
    The Dutch have made a policy choice: less black market 
activity at the retail level, and less police intrusiveness 
into ordinary life, in exchange for higher levels of marijuana 
use. Whether that is the right choice depends upon one's views 
about the dangers of marijuana. At any rate, it seems likely 
that the Dutch might have achieved their goals with a less 
extreme policy. For example, South Australia allows home 
cultivation of small quantities of marijuana but not commercial 
sales or promotion.
    Much less is known about the consequences of alternative 
drug laws for heroin or cocaine. On the one hand, legalization 
would probably reduce the harmfulness to the user, and to 
others, of the average drug-taking episode. On the other hand, 
legalization would increase the number of those drug-taking 
episodes. At present, there's no firm basis for predicting the 
relative size of those two effects. Thus, legalization is a 
very risky strategy for reducing drug-related harm.
    But the drawbacks of legalization do not imply that our 
current version of prohibition is the optimal drug strategy. It 
may well be possible to implement prohibition in less harmful 
ways.
    Thank you very much.
    [The prepared statement of Mr. MacCoun follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.055
    
    [GRAPHIC] [TIFF OMITTED] T4343.056
    
    [GRAPHIC] [TIFF OMITTED] T4343.057
    
    [GRAPHIC] [TIFF OMITTED] T4343.058
    
    [GRAPHIC] [TIFF OMITTED] T4343.059
    
    [GRAPHIC] [TIFF OMITTED] T4343.060
    
    [GRAPHIC] [TIFF OMITTED] T4343.061
    
    Mr. Mica. Thank you for your testimony, and now I'll 
recognize the last witness on this panel, Sandra Bennett, 
president of Drug Watch International.
    Ms. Bennett. I have a statement here by one of our members, 
a 20-year-old member of Drug Watch, and could I submit this 
for----
    Mr. Mica. Without objection, that will be made part of the 
record. Can you pull that as close as possible?
    Ms. Bennett. Thank you.
    Mr. Mica. Great. You're recognized. Go right ahead.
    Ms. Bennett. Chairman Mica, members of the committee, thank 
you for inviting me to provide testimony on this critical 
issue, one that's so important to the welfare and strength of 
our Nation, and particularly important for the quality of the 
future we want for our children.
    First and foremost, I'm a mother who, because of illicit 
drugs, has been subjected to every parent's worst nightmare and 
ultimate horror, the death of their child, and it's from that 
perspective that I'm going to address you today. Though it 
would seem that much of the public is still in the dark, the 
harmful effects of drugs on the body, the mind, an on society 
itself are well documented in scientific research and history. 
However, here we are again, for the umpteenth time over the 
past 20 years, being forced to debate this inanity.
    It's been said, those who don't learn from their mistakes 
are doomed to repeat them. With this caveat in mind, I 
fervently pray that you'll do everything in your power to 
prevent this country from returning to the permissive drug 
policies of the 1970's which embraced responsible use of 
dangerous drugs.
    It was in this permissive environment that drug use 
flourished, and decriminalization of marijuana became the 
mantra of the pot smokers. Drug use, particularly among 
students, ran rampant, and the United States raced far ahead of 
the rest of the world in consumption of illicit drugs.
    Police Chief Reuben Greenberg of Charleston, SC, wrote, 
``With few exceptions, other than the drug traffickers 
themselves, faculties and administrations of our Nation's 
colleges and universities are the most hostile elements to the 
enforcement of our Nation's drug laws.'' It was this permissive 
campus drug environment that led to the death of our son 
Garrett.
    My testimony today is for Garrett and all those young men 
and women whose lives have been irreparably damaged by drugs, 
or who did not survive their encounter with marijuana, cocaine, 
heroin, Ecstacy, and LSD. And it's for the parents of those 
children who must face the rest of their life knowing that 
their child's death or disability was a completely preventable 
tragedy, a tragedy that likely would not have happened had 
sanctions against drug use been enforced.
    Decriminalization, as embraced by the drug culture, is 
simply the notion that those who use illicit drugs are 
blameless and that all criminal legal sanctions against use 
should be removed. As a bereaved parent, I can tell you that I 
would rather my son be shaken to his senses with a little jail 
time than have to lose him, have him lose his life or lead a 
useless, debilitated one.
    Decriminalization is actually part of a back door effort to 
ease society into accepting legalization of all psychoactive 
and addictive drugs. ``Harm reduction,'' a cover-all term 
coined by the legalizers, is a euphemism encompassing 
legalization and liberalization of drug policy, and can best be 
defined as a variety of strategies for making illicit drug use 
safer and cheaper for drug users at the expense of the rest of 
society, regardless of the cost.
    Included in these strategies are decriminalization, 
medicalization of marijuana, industrial marijuana hemp, 
distribution of free needles to injecting drug users, free 
drugs to addicts, and a host of other tactics designed to 
enable and protect drug users. The media and our educational 
institutions are rife with ``harm reduction'' propaganda.
    Speaking for the hundreds and thousands of parents who have 
lost children to drugs, I cannot understand how this country 
can listen for even one moment to those who advocate making 
illicit drugs easier to come by, particularly when most of the 
leaders of this effort are admitted drug users. Unfortunately, 
credibility is given to those disingenuous scofflaws when they 
are invited to the podium, paraded on TV, glorified on PBS, and 
asked to serve as consultants to government agencies and the 
media, who then parrot this misleading, deceitful and dangerous 
propaganda.
    The pro-drug advocates are allowed to operate out of our 
universities with impunity, and their deceptive and dangerous 
rhetoric fills the Internet, where it is readily available even 
to our primary school children. The media, which could be part 
of the solution, are instead a tremendous part of the problem. 
They play a significant role in the way people think, whether 
it's about political, business, health or community issues.
    Many journalists and commentators have bought into the 
notion that using psychoactive drugs is a personal right. 
Although adolescent drug use is half what it was in the late 
1970's, the media echoes the claims of the legalizers that 
despite having spent billions of dollars fighting the war on 
drugs, it has failed and should be abandoned in favor of 
permissive drug policies.
    Complaints about spending too much money on the war on 
drugs have no basis in fact. It's simply pro-legalization 
rhetoric, as espoused at a Drug Policy Foundation media 
workshop in 1992, where attendees were coached to ``use 
economics, paint ridiculous extremes, then go for logical, 
moderate alternatives.''
    If spending billions to reduce drug use is such a waste, 
where is their outcry against the War on Poverty? Declared in 
1964, the War on Poverty has already cost this country over $5 
trillion, yet more than 20 percent of American children between 
the ages of 6 and 11 still live in poverty, a condition 
worsened by the impact of illicit drugs.
    How does all of this relate to my son's death?
    In 1980, President Carter's blue ribbon panel on drugs, the 
Drug Abuse Council, issued a report stating that America did 
not have a drug problem and that it was mostly hysteria, and it 
called for decriminalization of possession of small amounts of 
marijuana. The report went on to lament that by adhering to an 
unrealistic goal of total abstinence from use of illicit drugs, 
opportunities to encourage responsible drug-using behavior are 
missed.
    Responsible use of an illicit drug? Is this akin to driving 
responsibly while drunk, or wearing boxing gloves to assault 
your spouse? One does not act responsibly under the influence 
of mind-altering drugs.
    That same year, 1980, Lester Grinspoon, M.D., associate 
professor at Harvard and an outspoken proponent of drug 
legalization, wrote in the Comprehensive Textbook of 
Psychiatry, ``Used no more than two or three times a week, 
cocaine creates no serious problems.'' Respected medical 
researchers believe this article fueled the rise in cocaine use 
in this country.
    To my family and me, Grinspoon's statement is nothing short 
of criminal. Our son Garrett died of cardiac arrest, and though 
the only abnormality found during his autopsy was a trace of 
cocaine in his urine, we learned later that even a small amount 
of cocaine is known to trigger this sort of fatal cardiac 
arrest. Similar circumstances occurred in the deaths of 
professional athletes Len Bias, Reggie Lewis, and Mark Tuinei.
    Lester Grinspoon is but one of many individuals and 
organizations that want to see drugs decriminalized as a first 
step toward full legalization. People like Grinspoon, Ethan 
Nadelmann, Rick Doblin, Eric Sterling, John Morgan, Kevin 
Zeese, Keith Stroup, Andrew Weil, Tony Serra, all of whom have 
publicly attested to their personal use of illicit drugs, are 
at the forefront of the drug legalization/decriminalization 
movement in America.
    And let's not forget Mark Kleiman. Kleiman was a consultant 
to the Office of National Drug Control Policy. He not only 
advocates legalization of marijuana, but also indicated 
publicly that he agrees with Canadian psychiatrist John 
Beresford that everyone has the right to use LSD.
    Eric Sterling, the admitted pot-smoking head of the 
Criminal Justice Policy Foundation, talking to a pro-
legalization audience about how to legalize marijuana under the 
guise of medicalization, said ``Packaging is important, and 
messages get packaged.'' In an article about the marijuana hemp 
movement, Sterling was quoted as saying, ``It is the leaky 
bucket strategy. Legalize it in one area, and sooner or later 
it will trickle down into others.'' We are talking about 
legalization of all drugs.
    This notion was taken up by international entrepreneur 
George Soros, who offered to fund the legalizers if they would 
target a few winnable issues like medical marijuana and the 
repeal of mandatory minimums. Consequently, the pro-drug lobby 
has cut up its agenda into a dozen smaller packages and is busy 
trying to dupe the public into accepting the whole pie, one 
bite at a time.
    Perception of consequences or danger is key. When drug 
users suffer no consequences, the behavior appears safe, 
acceptable, and spreads unchecked, friend to friend, sibling to 
sibling, parent to child. Decriminalization of drugs? Not on 
your life. And please, not on the lives of our children.
    Thank you very much.
    [The prepared statement of Ms. Bennett follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.062
    
    [GRAPHIC] [TIFF OMITTED] T4343.063
    
    [GRAPHIC] [TIFF OMITTED] T4343.064
    
    Mr. Mica. Thank you for your testimony. I will start with a 
couple of questions. First of all, Mr. MacCoun, did I hear the 
statistics correct about the Netherlands? Did you say the 
Netherlands had allowed up to 30 grams of cannabis until 1995, 
and then dropped it to 5?
    Mr. MacCoun. To 5 grams. That is, possession of up to 5 
grams is not prosecuted.
    Mr. Mica. Are you aware why they tightened this up? I 
wasn't aware of that.
    Mr. MacCoun. It was part of a general tightening up of the 
Dutch policy in response to international pressure, both from 
the United States and from the Dutch neighbors, France, 
Belgium, and Germany.
    Mr. Mica. Mr. Stroup, you used the Netherlands as an 
example, I think. Is that the model that you would like to see 
in the United States? I guess that in the Netherlands it is 
still illegal but you can have a small quantity of marijuana.
    Mr. Stroup. It is sort of a gray market, Mr. Chairman, 
where they allow adults to go to coffee shops, where they can 
buy small amounts of marijuana at the coffee shops.
    Mr. Mica. They sell----
    Mr. Stroup. That is correct. I don't think that is the 
perfect solution but I think it is a cease-fire, sort of middle 
ground for the moment. What it does is what decriminalization 
does generally. It removes the consumer from the threat of 
arrest and jail, but it maintains strong criminal sanctions 
against commercial sellers. So I think it is a good first step.
    Mr. Mica. So your group would still advocate enforcement, 
then, of trafficking?
    Mr. Stroup. What we would like to see----
    Mr. Mica. Someone has to be involved in an illegal process 
to get the 5 grams to the coffee shop.
    Mr. Stroup. What we would recommend, Mr. Chairman, is that 
the government legalize and regulate a market for marijuana so 
consumers would have a legal and a safe source to get it, but 
we recognize there may always be characters who would sell 
beyond that, just as there occasionally are bootleggers that 
still operate today, and that would still remain illegal. 
Unregulated commercial sales would remain a crime. Regulated 
sales would not.
    Mr. Mica. Well, to date there have been 11 States, I think 
you testified, that have decriminalized or lowered the 
penalties. Should this be left up to the States, as opposed to 
having the Feds make some decision on this?
    Mr. Stroup. Yes, sir. I believe we should follow the same 
sort of pattern we did at the end of alcohol prohibition in 
1933. As you recall, the Federal Government got out of the 
business of enforcing alcohol prohibition. They removed Federal 
prohibition, but they did not demand that every State 
immediately legalize the sale of alcohol. Some counties in this 
country are still dry counties.
    I think the correct procedure would be to remove the 
antimarijuana law that was passed in 1937 and let the States 
experiment with different models. It is the way our Federal 
system was designed to work.
    Mr. Mica. Now, we have talked about marijuana in this panel 
mostly, although Ms. Bennett can certainly testify to the 
adverse effects of cocaine. Are you advocating taking the same 
position relating to heroin or cocaine?
    Mr. Stroup. No. I believe that we have a right as a society 
to judge illicit drugs, to some degree, based on their 
potential for harm. Quite honestly, of the 13 million illicit 
drug users in this country, that is roughly the government 
figure, 10 million are just marijuana smokers. There are 3 
million that use the more dangerous drugs, cocaine, 
amphetamines, and heroin, all the drugs I have heard talked 
about today, but 10 million are just marijuana smokers.
    So if we simply decriminalized and legalized marijuana, we 
would reduce the drug problem in this country enormously, 
reduce the number of good, hard-working citizens who are being 
dragged through the criminal justice system needlessly, and 
then let's see how that system works.
    What I do think about the other drugs, cocaine, heroin, 
amphetamines, is that for people who use those drugs, if they 
have a problem, it is a medical problem. It is not a criminal 
justice problem. So what I would suggest is that we legalize 
marijuana but that we medicalize the other drugs; that is, we 
don't create a market, we don't have a store that sells heroin 
or amphetamines, but that when someone is caught with those 
drugs, they are put into drug treatment, they are given help.
    Mr. Mica. I think one of you cited, maybe it was you also, 
Mr. Stroup, that the cocaine--the decline in cocaine arrests, 
was that the Federal and State level?
    Mr. Stroup. Yes, that is the combination of Federal and 
State cocaine and heroin sales arrests. There was a 51 percent 
decline in the last decade, at the same time that the emphasis 
was placed back on marijuana smokers.
    Mr. Mica. The problem with that, I think, if you look at 
those statistics, is people have now gone from cocaine to 
heroin and methamphetamine.
    Mr. Stroup. I would agree. I don't suggest that every law 
enforcement officer out there by any means goes out with the 
intention of looking for marijuana smokers, but I think when 
you have 10 million to 12 million people that smoke on a 
regular basis and 20 million marijuana smokers during the 
course of a year, the fact is, they are going to run across 
large numbers of otherwise law-abiding citizens who have got a 
marijuana joint in their pocket. So the result is, the people 
we end up arresting are predominantly marijuana smokers. They 
are not heroin addicts, they are not amphetamine sellers, 
they're marijuana smokers.
    Mr. Mica. Mr. MacCoun, you said you did some studies. Was 
that in all 11 States that have changed their laws?
    Mr. MacCoun. Yes. There is a small literature now. A number 
of both cross-sectional and longitudinal studies have looked at 
the U.S. experience with the 11 States that decriminalized 
marijuana.
    Mr. Mica. And you said that there was no difference in the 
number of people who went from one drug to another?
    Mr. MacCoun. No, that there was no difference between 
decriminalizing and non-decriminalizing States in the rates of 
marijuana use.
    Mr. Mica. What about the question of marijuana being a 
gateway drug, as the drug czar testified in our previous panel? 
Is there any study or evidence to document that?
    Mr. MacCoun. There are two lines of evidence. One is U.S. 
research. Some people believe that there is a substitution, 
actually a substitution relationship between current marijuana 
use and current use of hard drugs, and that decriminalization 
of marijuana actually might bring about some reduction in hard 
drug use. That is controversial, and that is not accepted by 
everyone in the research community.
    The other line of research that addresses that question--
first let me say there is clearly a statistical association 
between cannabis use and hard drug use. Most people who use 
marijuana do not go on to hard drug use, but there is clearly a 
statistical association.
    The Dutch cite that statistical association as the basis 
for their policy. The Dutch believe that the reason there is a 
statistical association between using cannabis and using hard 
drugs is because once people begin using cannabis, most 
cannabis users do not encounter serious health problems as a 
result. They also come into contact with drug dealers who sell 
hard drugs, and for those two reasons, people start moving on 
to harder drugs. What the Dutch wanted to do was separate those 
two markets by making cannabis not legally available but de 
facto legally available in these coffee shops, so that people 
would not come into contact with hard drug users.
    In our research we have looked at that question. We do find 
some evidence that the probability of going on to hard drug 
use, given that you are a marijuana user, is lower in the 
Netherlands than in the United States. Whether that is a result 
of their policy is hard to say, but statistically fewer people 
go on to hard drug use in the Netherlands than in the United 
States.
    Mr. Mica. Chief Glasscock, what do you think about 
legalizing marijuana?
    Chief Glasscock. Well, Mr. Chairman, I am not--I kid people 
and I say----
    Mr. Mica. Decriminalizing it, or----
    Chief Glasscock. Decriminalizing it or legalizing it I 
guess is almost synonymous for me, and I tell people I am just 
a plain old chief from Plano, TX, and I am not a scientist or a 
researcher.
    There are a few things that I do know. I am not aware of 
any reputable medical institution that recommends the use or 
the decriminalization or the legalization of marijuana. I think 
we have had a number of people who take the contrary.
    The other is, I don't know of any--and we talk about it for 
medicinal purposes--I don't know of any medicine that we smoke, 
and I think we only have to look at our history with tobacco 
and what we have learned from that, and for us to go and tell, 
particularly tell our youth, that smoking marijuana is going to 
be OK, to me is indefensible.
    I look at what we experience on the streets. Marijuana is 
the most commonly used illicit drug among youth. The most 
recent survey data that I have out of the Texas school survey 
shows that the average age is 13 for a young person to be 
starting to use marijuana.
    My experience shows me that marijuana is a gateway drug. 
The 18 deaths that we have had to deal with in our community 
from heroin overdose, they all started with gateway drugs. They 
were poly drug users, and every one of them had a history of 
marijuana use.
    It is just difficult for me to accept the concept of 
decriminalization or legalization of the use of marijuana, 
particularly in what we are seeing on the streets and among our 
young people.
    Mr. Mica. Ms. Bennett, a final question: Did your son abuse 
any other drugs, other than cocaine, to your knowledge?
    Ms. Bennett. Actually, he did not smoke, and was chided 
because he did not like alcohol. So in this case, it was the 
perception all over the campus and probably throughout the 
State that cocaine was neither harmful nor addictive that made 
it seem safer than the other drugs, and there was no school 
policy against it and no fraternity policy against any sort of 
illicit drugs.
    Mr. Mica. Thank you.
    Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman.
    I want to address my question to Dr. MacCoun. The 
discussion is very confusing, because as an ordinary person, I 
have great difficulty in understanding this one sentence in 
your testimony which says that it is important to emphasize 
that in decriminalization, the sale and manufacture of the drug 
remains illegal and is criminally prosecuted.
    Now, I don't understand how the sale and manufacture of a 
drug can remain illegal and criminally prosecuted, while at the 
same time saying that its use and possession is decriminalized. 
How do you get to use marijuana except after a sale and 
manufacture?
    Mr. MacCoun. Well, clearly in decriminalization regimes, 
the marijuana is changing hands through an illegal sale.
    Mrs. Mink. Well, isn't the possession and product of 
something which is illegal also illegal? Isn't that what we are 
taught in law school?
    Mr. MacCoun. Well, possession is--I am not a lawyer, 
although I am a law professor--but possession is defined----
    Mrs. Mink. Are you applauding, Mr. Ose?
    Mr. Ose. The fewer attorneys, the better.
    Mr. MacCoun. Possession is defined as a separate legal 
offense from sale and manufacture, and that has been true----
    Mrs. Mink. But it is traceable back to it, and so I don't 
understand this argument. I could understand it if you were 
arguing that sale and manufacture for personal use or something 
like that is perfectly legal and would not be prosecuted, but 
when you argue that under your concept the sale and manufacture 
remains illegal and is criminally prosecuted, it is absolutely 
confusing.
    Mr. MacCoun. I want to clarify, this--I am not arguing a 
concept. I am simply describing the state of the laws in 11 
States.
    Mrs. Mink. But I am trying to----
    Mr. MacCoun. I quite accept your point that there is an 
ambiguity there, and I find the Dutch policy even more 
ambiguous. The Dutch are willing to live with that ambiguity.
    Probably the least ambiguous version of decriminalization 
would be the South Australia version, which was also the regime 
in Alaska for some years. That is, personal cultivation of 
small amounts was not criminalized. Again, trying to break up 
the black market by getting people to grow their own marijuana 
if they were going to use it.
    I am not here to advocate that the policy should be 
ambiguous or not ambiguous. I am simply describing factually 
the state of law in 11 States in this country.
    Mrs. Mink. The 11 States adhere to that ambiguity?
    Mr. MacCoun. Yes, that is right; 11 States adhere to that 
ambiguity. It is not an unprecedented ambiguity. We have 
similar ambiguity in our enforcement of other vices. Whether 
that is a good thing or a bad----
    Mrs. Mink. But does that ambiguity then lead to even 
greater confusion among our young people, when we are trying to 
say to them that they ought not start this habit? Because I 
assume in your testimony that you are not advocating the use of 
marijuana, you are just analyzing the circumstances that 
exist----
    Mr. MacCoun. That is correct.
    Mrs. Mink [continuing]. In our society. So wouldn't you 
also then conclude that this ambiguity creates even greater 
confusion in our teenage population when faced with this 
dichotomy?
    Mr. MacCoun. I think that is a very plausible argument. 
However, I think that empirically, if it were true that 
decriminalizing marijuana implied endorsement of marijuana, we 
would expect to see an increase in marijuana use in the 
decriminalizing States, and we didn't see any such increase.
    Mrs. Mink. What about increases in the use of other illegal 
drugs as a result of this ambiguity with regard to marijuana in 
those 11 States?
    Mr. MacCoun. Those States do not have higher levels of hard 
drug use than nondecriminalizing States.
    Mrs. Mink. Now, what accounted for the increase in the use 
of marijuana under the Dutch policy?
    Mr. MacCoun. Well, it's--the evidence I cited is 
correlational and not causal. Nevertheless, we believe--we 
contend in our analysis that the most likely explanation for 
the increase--and I want to be clear this is an increase that 
occurred during the 1980's--that it coincided with an increase 
in the number of commercial coffee shops selling cannabis.
    We think that correlation is probably not a coincidence; 
that in fact commercial promotion led to an increase in use. 
Prior to that time, when the Dutch stopped incarcerating 
offenders for marijuana possession, but there weren't coffee 
shops, we saw no effect in Dutch cannabis statistics. Which 
leads us to the conclusion that the decriminalization aspect 
per se had little or no effect, but that the commercialization 
of cannabis has led to an increase in cannabis consumption in 
the Netherlands.
    Mrs. Mink. As a researcher, would you be concerned at all 
about the statistics which were just released today by the 
National Center on Addiction and Substance Abuse at Columbia 
University, which cites the fact that almost 88,000 teenagers 
were admitted for treatment for abuse or addiction to 
marijuana?
    Mr. MacCoun. Of course I am greatly concerned by that.
    Mrs. Mink. Well, how would----
    Mr. MacCoun. I haven't seen the report, but I think that 
there is evidence that--I certainly would not contend that 
cannabis is not harmful, and I have not contended so today. 
There are risks associated with cannabis. We also know that 
most people who use cannabis do not get involved in serious, 
harmful consequences, so the risks are less serious than for 
cocaine or heroin, but cannabis is a harmful drug.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I would like to pursue 
the lawyer question----
    Mrs. Mink. Careful, I am a lawyer.
    Mr. Ose. Well, you are one of the good ones, though, of 
course.
    First, I'd like to clarify something. Somebody, I don't 
recall who, made a comment about studies commissioned under 
President Nixon and ratified under Carter, and the current 
President and Vice President and former Speaker of the House 
making comments about marijuana use.
    No. 1, I didn't vote for Nixon, who commissioned the 
initial study. I didn't vote for Carter, who ratified it, and I 
certainly didn't vote for President Clinton or Vice President 
Gore, who admitted to using it, and I never voted for former 
Speaker Gingrich, who also admitted using it. I want to be 
clear that that kind of an argument really doesn't hold water 
with me.
    However, let me go on to the substance of my questions. If 
I understand correctly, Mr. Stroup, from your testimony, 
there's 18 to 20----
    Mr. Stroup. Million people who have smoked in the last 
year.
    Mr. Ose. Yes, 18 to 20 million who have smoked during the 
last year.
    Mr. Stroup. Right.
    Mr. Ose. Thirty-two percent of the voting adults 
acknowledging having smoked marijuana at some point in their 
lives. That means that there is roughly 230 or 240 million who 
haven't smoked during the last year, and roughly 68 percent of 
the voting adults in the country who haven't smoked marijuana 
at some point in their lives. I am just doing the simple math.
    Mr. Stroup. I am not sure about your math, but at least it 
is true that if you have one-third of the eligible voters who 
have smoked, there are two-thirds who have not.
    Mr. Ose. Right. Well, that is my point. So the question I 
come to is that when I look at your cover letter here, the 
third line describes you as a nonprofit public interest lobby, 
and I am trying to figure out what do those 230 or 240 million 
people, or those 68 percent of the voting adults--why should I 
subsidize an organization such as yours?
    Mr. Stroup. Well, I think that if you believe the current 
policies are ineffective and costly and counter-productive, 
then there is an obligation to look for alternative policies. 
We are simply suggesting that we can decriminalize marijuana, 
we can reduce the number of good, honest, hard-working 
Americans who are needlessly dragged through the criminal 
justice system, and there are no apparent down sides to that 
change.
    Mr. Ose. I have learned in politics to never let an 
arguable position go unchallenged, and I would challenge you on 
your position that decriminalization has no negative impact. 
For instance, can you tell me whether or not NORML has any 
epidemiological data regarding the use of marijuana by pregnant 
women?
    Mr. Stroup. No. There certainly has been research done by 
the Federal Government and others on that question, and there 
is no indication to date that marijuana smoking has any impact 
on pregnant women or on newborns that have been born to 
pregnant women who have smoked marijuana. It is not a smart 
thing to do. I think most of us would suggest that you not 
drink alcohol, smoke cigarettes or smoke marijuana when you are 
pregnant.
    Mr. Ose. How can you say it is not a smart thing to do? You 
have no data on which to base that comment.
    Mr. Stroup. Well, certainly. Smoking itself is unhealthy. 
We know that when pregnant women drink alcohol, for example, 
there is fetal alcohol syndrome. The suggestion would be that 
if there is any time when a person should be extremely 
healthful, it would be during pregnancy when you are carrying a 
child.
    The idea here is not to turn on America or to increase the 
number of drug users in America; it is to minimize the harm of 
our current antidrug policies.
    Mr. Ose. Actually, my objective here is to eliminate the 
drug use or abuse of any----
    Mr. Stroup. Well, good luck, it has never happened in the 
history of mankind, and I suspect you will be frustrated.
    Mr. Ose. It is all right, I am young.
    Mr. Stroup. And optimistic.
    Mr. Ose. Now, from where does NORML obtain its function for 
operations?
    Mr. Stroup. Private contributions. We get people who agree 
with our position and who appreciate the work we do, and they 
contribute money. We are a 501(c)(4). It is not tax deductible. 
It is a contribution----
    Mr. Ose. That was my next question.
    Mr. Stroup. No, we are not. We do have a tax-exempt side, a 
501(c)(3) NORML Foundation, but the NORML Foundation can do no 
lobbying. It is simply an educational foundation.
    Mr. Ose. The activities that the foundation engages in 
range what gamut?
    Mr. Stroup. Public education, primarily. We do some public 
advertising, some campaigns in which we try to get our 
viewpoint out. We also provide legal assistance to people who 
have been arrested on the marijuana penalties and need help 
either finding a good lawyer or raising a valid defense. In 
particular, most of the legal defense is provided to those who 
are medical users of marijuana but who have been prosecuted 
under State law.
    Mr. Ose. So if I understand correctly, the 501(c)(3) 
organization does enjoy certain tax advantages that could 
arguably be used to further the ``agenda'' that some of us, 
wherever we might sit today, find objectionable.
    Mr. Stroup. Well, if we filed what is called a 501(h) 
election--I hate to be too technical, but that is the provision 
under the IRS Code where even a foundation can do a modest 
amount of lobbying--we would be entitled to do that. We have 
not filed a 501(h) election.
    The NORML Foundation does no lobbying or policy work at 
all. We simply do research and education and legal support. 
Now, you might not agree with the legal support we are 
providing, I understand, but that is what is great about this 
country, is it is a free country.
    Mr. Ose. I am trying to find out why I would agree to any 
such educational program, the consequence of which might be 
adverse to my 6 and 4-year-old, 5 years, 5 months, 5 days from 
now.
    Mr. Stroup. I don't think that telling the truth about 
marijuana and marijuana policy is detrimental to anyone, 
including your 5 and 6-year-olds. We are trying to counter a 
``reefer madness'' misinformation campaign that the State and 
Federal Governments have been involved in now for 60 years, and 
many of you in Congress are still involved in. So I don't think 
you should fear the facts.
    Mr. Ose. Mr. Chairman, I see the red light. I regret my 
time has passed. However, I do want to again subscribe to the 
theory of letting no suggestion go unchallenged. I want to 
refute, as best I can today, simply that I am not a subscriber 
to the fact that marijuana has no adverse consequences. I 
happen to think it does have adverse consequences, and I 
appreciate the opportunity to participate today.
    Mr. Mica. I thank the gentleman.
    Mr. Cummings, did you have any questions for this panel?
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    I am always intrigued by your efforts to get away from the 
term ``legalization.'' When did this term ``decriminalization'' 
first come into popular usage? Was it you that developed that 
for a euphemism?
    Mr. Stroup. To me, Mr. Barr?
    Mr. Barr. Yes.
    Mr. Stroup. No. The first time I had heard of that word was 
in 1972, when the National Commission on Marijuana and Drug 
Abuse came out with it. In fact, I think for most of us it 
seemed like a strange term, and we weren't quite sure what they 
meant until we had read the report.
    Mr. Barr. You embrace it now?
    Mr. Stroup. I do embrace it. I think it is a common sense 
recommendation that has worked well in the 11 States that have 
had that policy in effect now for 25-plus years.
    Mr. Barr. What are the other two States? There are nine of 
them listed here, in somebody's paper here.
    Mr. Stroup. I have a foot----
    Mr. Barr. It says 11, and then the footnote only lists 
nine: Alaska, California, Colorado, Maine, Minnesota----
    Mr. Stroup. If you will look on footnote 3 of my statement, 
you will see 11 States listed there.
    Mr. Barr. All right. Your colleague might want to check 
that out. He only has nine listed.
    Mr. Stroup. Well, mine has 11.
    Mr. Barr. OK. Maybe we will split the difference, I don't 
know. But this term ``decriminalization,'' I mean, I can 
understand why you embrace it and like to use it, because it 
sounds like something less than ``legalization.'' I do think it 
is sort of splitting hairs and is simply sort of a Clintonesque 
way of describing something to make it appear different from 
what it really is.
    Mr. Stroup. Could I explain in one sentence the difference 
between----
    Mr. Barr. The--sure.
    Mr. Stroup. The difference in----
    Mr. Barr. It means reducing penalties.
    Mr. Stroup. No, no. There really is a subject matter 
difference, as well.
    Mr. Barr. I was just quoting one of your papers here.
    Mr. Stroup. On the first page of my statement, in fact, 
what we talk about is--decriminalization removes the user, the 
consumer, from the threat of arrest or jail. However, 
commercial sellers would still be subject to arrest and jail 
just like they are now. Legalization----
    Mr. Barr. What would be the legal basis on which you could 
do that? Say somebody can use a substance, in this case 
marijuana, say, without any threat of any penalty, but the 
person that gives it to him or sells it to him would be subject 
to penalties.
    Mr. Stroup. Well, the most obvious prohibition was alcohol 
prohibition from 1919 to 1933. You are young enough that you 
wouldn't remember that, I expect, but the reality is, it was 
never illegal to possess or drink alcohol during alcohol 
prohibition. It was illegal to sell it commercially. You were 
even allowed to make several--I forget the quantity, 50 pounds 
or something, of alcohol in your own home during alcohol 
prohibition, so there is precedent there.
    Mr. Barr. Does there, in terms of that precedent, lie the 
fallacy of saying that decriminalization isn't, in and of 
itself--just if you characterize prohibition as 
decriminalization of alcohol from that standpoint, it didn't 
work, I presume.
    Mr. Stroup. I am delighted to hear you say that, Mr. Barr.
    Mr. Barr. This is all hypothetical, but I am certainly not 
arguing to, you know, change our alcohol laws. The use of 
alcohol, when it measurably and demonstrably impairs a person's 
ability to act and react to the work around them, is criminal.
    Mr. Stroup. And so should marijuana remain.
    Mr. Barr. Well, and therein, I suppose, lies the 
distinction, whether or not one can smoke some joints and not 
have their ability to react to the world around them impaired 
to the extent that it poses a danger, but I don't want to get 
into that debate. I would disagree with you on that, but I 
understand the distinction there.
    But it seems to me that if you are saying, ``Well, 
decriminalization didn't work with regard to alcohol back in 
the days of prohibition, but we want to try it now for 
marijuana,'' you probably would conclude that it is not going 
to work with marijuana either if we go that route. You are 
going to run into all sorts of, I suppose, equal protection 
problems. You are going to run into all sorts of enforcement 
problems, and then the next step would be, ``Well, let's, you 
know, legalize it. Let's just legalize it.''
    Mr. Stroup. In fact, on the first page of my statement, you 
will see that we do, in fact, favor eventual legalization of 
marijuana. By that I mean the distinction is, the government 
would actually legalize and regulate a market so consumers 
could buy marijuana in a safe setting.
    Now, I think that is going to take some time before we are 
going to get there, but I think eventually we need to do that 
in order to deal with the attendant violence and crime 
associated with any unregulated and uncontrolled black market. 
The reason alcohol prohibition was such a failure, in addition 
to the fact that you had millions of citizens who wanted to 
drink whether or not the government wanted them to, was because 
of the crime associated with the prohibition, and the same 
thing is true with marijuana prohibition.
    Most of the ills that result from marijuana prohibition are 
what bother everybody about marijuana. It is not the marijuana, 
it is the prohibition. When you have large amounts of money in 
a totally unregulated setting----
    Mr. Barr. Well, no. I mean, that depends on who you talk 
to. When I talk to my colleagues and parents and people in my 
district, it is not the enforcement that bothers them, it is 
what it does to people's minds and the danger that it poses, 
because they do believe that there are dangers and adverse 
consequences that affect a person who smokes marijuana.
    I was intrigued, though, by one comment you made in your 
answer, I think, to a question from my colleague from 
California regarding smoking. Would you concede--I wrote down 
here, and I extrapolated from something that you said--would 
you concede that smoking marijuana is at least as harmful as 
smoking tobacco?
    Mr. Stroup. No. I think actually the research shows that it 
is not as harmful as smoking tobacco. However, I would concede 
that it is harmful to bring smoke into your lungs, and we 
should generally discourage those kinds of activities. But we 
don't have to pass a criminal law----
    Mr. Barr. If we are going to decriminalize marijuana, then 
if smoking tobacco is even worse than that, then we ought to 
make smoking tobacco illegal.
    Mr. Stroup. It sounds like many of you in Congress are 
heading that way, but I would certainly advise against it.
    Mr. Barr. Not this Member.
    Mr. Stroup. No, no. You are from Georgia, I know.
    Mr. Barr. But, anyway, I appreciate you being here. It is a 
very interesting discussion. I doubt that I will convince you 
of anything, and vice versa, but I do appreciate you being 
here.
    Mr. Mica. Did you have any additional questions?
    Mrs. Mink. No.
    Mr. Mica. I think today we have had several sides 
presented, and Mr. MacCoun has tried to present the facts as he 
sees them. We appreciate that. I don't know if we have reached 
any conclusions. Sometimes they try to portray, I guess, drug 
use as a right and drug abuse as a victimless crime. I think 
you would probably have to disagree with that, Ms. Bennett, 
wouldn't you?
    Ms. Bennett. Could I make one statement?
    Mr. Mica. Yes. We will give you the last word.
    Ms. Bennett. I am from the Pacific Northwest, from Oregon, 
and I know, because I have been working in prevention since 
1988, that drug use increased dramatically when marijuana was 
decriminalized, and California experienced an 81 percent 
increase after decriminalization, and in Alaska it became so 
bad after they legalized it that they recriminalized it a 
couple of years ago. So we are looking at a different set of 
facts, and there really can only be one set of facts. The rest 
of it is just balderdash.
    And I would say one other thing: that if you got anyone in 
this room on the stand and asked them if they ever stole 
anything, I am sure most people in their youth have tried that 
once or twice. It doesn't mean that we abandoned the laws 
against--enforcing that there is no theft, that thievery and 
robbery is a crime. Just because as children we might have done 
that or made that mistake, does not mean that we should 
legalize it or decriminalize robbery.
    And I think when we see these people who in their youth 
tried an illicit drug or did an illicit act, that it falls in 
that same category. It doesn't mean that we should go on to 
legalize bad behavior.
    Mr. Mica. Thank you. Mr. Barr, you had one last question?
    Mr. Barr. Just one question: Is Geraldo Rivera still on 
your advisory board?
    Mr. Stroup. No, Mr. Barr. He was, at some time in the 
1970's, but I have not actually seen or spoken to Mr. Geraldo 
for 15 years. He has not been for a long time.
    Mr. Barr. Thank you.
    Mr. Mica. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I just 
have a very brief question and comment for Ms. Bennett.
    Ms. Bennett, I agree with what you just said. I don't know 
if most of America--as a matter of fact, I know most of America 
doesn't see what I see in my neighborhood, and a lot of the 
young people in my neighborhood got started on drugs through 
marijuana and smoking.
    And if you were to tour my neighborhood in Baltimore, you 
would see within a block of my house around about this time of 
day, maybe 100 people, young people, standing around in a 
stupor. Not in school, should be in school. And many of these 
young people I have known all their lives. Young girls at 14 
and 15 years old who will commit any sexual act you request for 
$5. That is the part America doesn't see. Maybe that hasn't 
gotten to certain parts of America, but it can get there.
    And, you know, when you talk about decriminalization, not 
you but just this whole idea of decriminalization and 
legalization and all of this, you know, there may be something 
to that for medical purposes. I don't know. But when I see the 
pain on the one hand, and what happens to people, and not just 
young people, and when I consider the pain, the pain to the 
families; our court systems being literally clogged. I mean, 
you can't even--you can barely get a civil case done because 
there are so many criminal cases, and 85 to 90 percent of them 
are because of drugs.
    When I took a relative to the emergency room the other 
night, I mean, I literally sat there for about 5 hours, from 
about 1 o'clock a.m., to about 6, and I was just talking to the 
ambulance personnel as they were bringing people in, and the 
guy told me, he says, ``You know, 85 to 90 percent of all the 
cases who come through this facility are drug-related.''
    And our society is paying a very, very high price, and I 
think it is very easy sometimes when we sit back and we make 
these philosophical statements about the legalization and 
decriminalization. But I am going to tell you, when you see the 
human toll, when you see the loss of life as you have seen and 
felt, when you go to the funerals like I do, because of folks 
arguing over who is going to sell drugs on what corner, when 
you see mothers cry, when you see classmates come, taking time 
out from their classes, to stand over caskets after people have 
been shot to death over drugs, I am telling you, it is not a 
pretty picture. It is a very painful picture.
    And a lot of their lives are basically, their potential is 
being snuffed out. When I go to a high school graduation 
sometimes, I went to several this past June, and you know, when 
people get to a point where literally they almost explode over 
the fact that their children are graduating--in other words, 
they see so much hell coming at them, and they are able to get 
around all of these roadblocks and graduate from high school, 
it is almost like the highest religious experience you have 
ever had. And at one school it was only 20 percent of the kids 
who started in the 9th grade, who graduated by the end of the 
12th.
    And so my point is, that there is a lot of pain out here so 
if we are going to talk about decriminalization and all that 
kind of stuff, you know, I just want you to know that, I mean, 
I look at this thing as a health issue--the whole drug thing, 
we need more treatment, and I will say this over and over 
again, for people who may become addicted. But we also have to 
look at the pain that is brought upon communities.
    Now, there was a time that people in the suburbs weren't 
talking about this. Let's be frank. And now that it has 
infiltrated every nook and cranny of this country. And I know 
about Plano, TX. They had a thing on one of the national shows 
not long ago, and I am telling you, I was spellbound. I mean, I 
just couldn't--as a matter of fact, Congresswoman Maxine Waters 
and I said maybe we need to go down there and try to help out, 
because we understand the pain.
    So hopefully America will wake up and understand that what 
is happening is that we are snuffing out not a generation but 
generations of people. And I want to thank you for your 
testimony. I am sorry I missed it earlier, but I just wanted to 
say that. I mean, a lot of times people, they don't see. They 
don't see all that.
    And sometimes--and then I will end with this, Mr. Chairman. 
You know, Martin Luther King, Sr., said something that is so 
special. He said you cannot lead where you do not go, and you 
cannot teach what you do not know. And I think sometimes when 
you
walk the path, as you have, and seen the pain and understood 
it, and then taken that pain and turned it around and used it 
as a passport to help other people, you ought to be applauded. 
And I thank you, and I just want you to know I am on your side.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T4343.065

    Mr. Mica. Thank you, and I want to thank each of our 
panelists for being with us today, for participating in this 
discussion and providing us with testimony.
    I might say, when I was a freshman in Congress, from 1993 
to 1995, we had one hearing on national drug policy. So we at 
least have attempted to try to open the debate and the 
discussion here and hopefully enlightened both the Congress and 
the American people about this subject, and we appreciate your 
helping us in that regard.
    Thank you. We will let this panel be excused.
    I will call the third panel, consisting of Mr. Charles J. 
Hynes, the district attorney of Kings County, NY. I believe he 
is going to talk about the DTAP program.
    Ms. Katherine Lapp, director of Criminal Justice, the 
Office of the Governor of New York, and I think New York has 
completed one of the most recent surveys relating to crime and 
incarceration.
    Then we have Ms. Barbara Broderick, director of Adult 
Services of the Administrative Office of the Courts, and she is 
with the State of Arizona, and we are pleased to have her. 
There has been much discussion nationally about what is going 
on in Arizona, and I think this should be one of the most 
interesting panels that we have had in all of our sessions this 
year.
    I am pleased that you are joining us. As I indicated, this 
is an investigations and oversight subcommittee of Congress. 
Please stand and be sworn in.
    [Witnesses sworn.]
    Mr. Mica. Thank you. Witnesses answered in the affirmative, 
and we would be glad to include lengthy statements in the 
record upon request. We do ask that you summarize. I got a 
little bit lax in the last panel, but we will try to ask you to 
summarize in 5 minutes or so, if you can, and that will leave 
us time for questions. But we do appreciate your being with us, 
and I will recognize first Mr. Charles J. Hynes, district 
attorney of Kings County, NY. You are recognized, sir, and 
welcome.

   STATEMENTS OF CHARLES J. HYNES, DISTRICT ATTORNEY, KINGS 
   COUNTY, NY; KATHERINE N. LAPP, NEW YORK STATE DIRECTOR OF 
 CRIMINAL JUSTICE; AND BARBARA A. BRODERICK, STATE DIRECTOR OF 
 ADULT PROBATION, ADMINISTRATIVE OFFICE OF THE COURTS, ARIZONA 
                         SUPREME COURT

    Mr. Hynes. Thank you very much, Mr. Chairman, Mr. Mica, 
members of the committee, and good afternoon. I would 
respectfully submit my full statement for the record in 
addition to these charts which deal with employment and 
recidivism as a result of our drug treatment program, which is 
what I am going to talk about.
    Mr. Mica. Without objection, they will all be made part of 
our record.
    Mr. Hynes. Thank you. And I am very, very pleased to be 
with both Ms. Lapp and Ms. Broderick. We are all New Yorkers. 
Arizona stole Ms. Broderick, and we miss her in New York. Katie 
Lapp is, of course, the Governor's chief adviser in criminal 
justice and an old friend of mine.
    I want to share some ideas I have with the committee on 
drug treatment alternatives to prisons and drug treatment 
alternatives to criminalization. But, first, just a brief 
moment on some background.
    I became the district attorney in Kings County, Brooklyn, 
NY, more than 10 years ago. My county had become the fifth most 
violent municipality per capita in the United States. Our 
population of 2.3 million people witnessed the horror of the 
murders of between 750 and 800 men, women, and children between 
1988 and 1992. In one particularly tragic year, 129 of our 
children, 17 years or younger, were murdered in Brooklyn. When 
we assessed the reasons for the carnage, it led immediately to 
the conclusion that drug-related crime, which rose from 15 
percent of all arrests in 1975, in New York City, to nearly 85 
percent in 1989, was directly responsible.
    It is very clear that the proliferation of drugs always 
leads to the creation of profit-motivated drug gangs who arm 
themselves to protect their product. Out of that violence, 
every neighborhood, village, town, and city is soon threatened 
with the same crisis level that Brooklyn faced in the late 
1980's and early 1990's when the phrase ``drive-by shootings'' 
became a common part of our lexicon.
    To deal with the crisis, we considered several options, the 
goal of which was to reduce the demand for drugs. And I should 
add that we never considered decriminalization as an option for 
a host of reasons, not the least of which is the inevitability 
of an illicit drug market controlled by the same drug dealers 
who sell drugs today. But I will leave that for others to 
expand the reasons against decriminalization because the 
initiatives we formulated in Brooklyn, in my view, moots the 
issue. The bi-level option we did choose was, first, an 
aggressive prosecutorial approach to nonaddicted drug 
traffickers. We throw the key away. If you get caught in my 
county and you are selling drugs and you are not a drug addict, 
we will send you to prison as long as we can. For example, if 
you are a trafficker caught selling more than 2 ounces of 
heroin or cocaine, you face a minimum period of 15 years to 
life in prison. But the second part of our option was to offer 
a treatment alternative prison to non-violent drug-addicted 
defendants who are facing sentences as high as 4\1/2\ to 9 
years in prison as second felony offenders.
    This second prong of our strategy, drug treatment, begun in 
late 1990, was the first ever prosecution controlled drug 
treatment program in the United States, and it is called DTAP, 
the Drug Treatment Alternative to Prison.
    The program has been adopted by all five district attorneys 
of New York City and various counties in the other parts of New 
York State, and it identifies prison-bound, non-violent, 
second-felony offenders who commit drug crimes in order to 
support their habit. Facing mandatory prison time, these 
defendants are thus motivated to choose diversion into long-
term treatment, and our office does the screening for 
suitability. We make the appropriate placement in a residential 
therapeutic community, and we monitor the progress. And if they 
succeed, generally, in a 2-year period, we dismiss the charges. 
Our office also takes control over getting them jobs and making 
sure they continue with their jobs.
    But if they withdraw from the program, they are returned to 
the court by a special arrest team, and they are sentenced to 
State prison on the plea that they originally made in court--
with no credit for time served in our program.
    DTAP has a 1-year retention rate of 66 percent, which is 
considerably higher than the national average. Three years 
after treatment, only 23 percent of our graduates have been re-
arrested, compared to 48 percent of those defendants who spent 
a comparable amount of time in prison on drug charges. Of our 
398 graduates to date, we have saved New York State more than 
$14 million in reduced criminal justice costs, health costs, 
and welfare costs. What is more, the graduates pay taxes, an 
average of $2,000 in Federal, State, and local taxes every 
year.
    Based on our experience in Brooklyn, now for nearly 10 
years, I can tell you there is another way to use existing drug 
laws to accomplish beneficial results without 
decriminalization. I agree with the critics of New York State's 
so-called Rockefeller drug laws that it makes no sense to 
simply warehouse non-violent drug abuses with long prison 
sentences. But rather than continuing the never-ending debate 
over the efficacy of long prison sentences for junkies who 
recycle drugs to other junkies to support their habit, we can 
use these harsh laws to encourage addicts to opt for treatment. 
Indeed, these laws should be changed, in my view, only where 
treatment is mandated.
    Today, we were asked by your staff, Chairman Mica, to put a 
face on this, and we brought a very, very fine face, a young 
man who joined our program in 1992 and is a proud 1995 graduate 
of DTAP, Mr. Frederick Cohen, who is with me. I hope you will 
give him a chance to say a few words sometime during this 
presentation.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hynes follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.066
    
    [GRAPHIC] [TIFF OMITTED] T4343.067
    
    [GRAPHIC] [TIFF OMITTED] T4343.068
    
    [GRAPHIC] [TIFF OMITTED] T4343.069
    
    [GRAPHIC] [TIFF OMITTED] T4343.070
    
    [GRAPHIC] [TIFF OMITTED] T4343.071
    
    [GRAPHIC] [TIFF OMITTED] T4343.072
    
    [GRAPHIC] [TIFF OMITTED] T4343.073
    
    [GRAPHIC] [TIFF OMITTED] T4343.074
    
    [GRAPHIC] [TIFF OMITTED] T4343.075
    
    [GRAPHIC] [TIFF OMITTED] T4343.076
    
    Mr. Mica. Thank you. Did you want to identify the 
individual?
    Mr. Hynes. This young gentleman right here.
    Mr. Mica. Thank you. We will go through the panel first. We 
will recognize now Ms. Katherine Lapp, director of Criminal 
Justice, Office of the Governor of New York.
    Ms. Lapp. Thank you, Mr. Chairman, and thank you for 
inviting me here this morning to talk about the topic of 
decriminalization of illegal drugs.
    I would like to focus my remarks principally on the 
experience of New York State in addressing illicit drug use and 
drug-driven crime. Over the last several years, there has been 
much debate in New York State about the efficacy of our drug 
laws, oftentimes referred to as the Rockefeller drug laws, 
which were enacted in 1973, in response to the onslaught of 
drugs and drug-driven crime. Drug law reform advocates have 
argued that the drug laws have done little to remove drugs from 
our communities and have only served to imprison low-level drug 
addicts in our State's prison system for lengthy periods of 
time. Advocates also argue that the laws should be repealed in 
whole or in part and replaced with a system to provide 
treatment for all drug-addicted criminals.
    My response to this position is twofold: First, the facts 
do not bear out the position that there are thousands of low-
level drug-addicted offenders sentenced each year to State 
prison for lengthy periods of time on charges of pure 
possession of small amounts of drugs. Second, New York State 
has developed a rather sophisticated and progressive system for 
providing drug treatment options and alternatives to 
incarceration programs for dealing with drug-addicted non-
violent offenders. The success of that system, however, is 
premised, in large part, on the fact that these offenders are 
motivated to take advantage of treatment options in order to 
avoid mandatory prison terms.
    In a recent report issued by my office entitled, ``Narrow 
Pathways to Prison: The Selective Incarceration of Repeat Drug 
Offenders in New York State,'' we have documented that less 
than 10 percent of persons with no prior felony record arrested 
each year in New York State for a felony-level drug offenses 
received sentences of State imprisonment; the balance received 
sentences of local jail time or probation. When we analyzed the 
group who were sentenced to State prison, we learned that 49 
percent had been arrested for a Class A-1 drug offense. Of 
those charged with lesser offenses, 48 percent had one or more 
bench warrants issued against them while they were out on 
pretrial release awaiting disposition of the drug charge.
    Mr. Mica. Excuse me, could you tell us what is a Class A-1 
drug offense?
    Ms. Lapp. Sure. In New York State, a Class A-1 drug 
offense, is sale of 2 ounces or more of a narcotic substance or 
possession of 4 ounces or more of a narcotic drug. In addition, 
57 percent were arrested at least once while out on pretrial 
release.
    We also undertook a random review of the case files for 
these first-time felony drug offenders sentenced to State 
prison and, in what I believe is a very persuasive way, 
documented the various reasons why they were sent to State 
prison. In simple terms, the offenders gave the judges little 
choice as they consistently and routinely ``thumbed their 
nose'' at the system and showed little remorse for their 
actions or interest in seeking treatment. And, finally, those 
sentenced to State prison served an average of 13 months in 
prison--hardly the lengthy sentences which drug reform 
advocates suggest.
    As for repeat drug offenders, our report also documented 
that only 30 percent of persons with prior felony arrest 
histories who were arrested on a drug felony charge actually 
received a sentence of State imprisonment.
    Now, there are roughly 22,000 individuals currently serving 
time in New York State prisons for drug offenses, and we have 
roughly a population of over 70,000 inmates in our prison 
system. Eighty-seven percent of the 22,000 are actually serving 
time for selling drugs, not mere possession, and over 70 
percent have one or more felony convictions in their record. Of 
those persons serving time for drug possession charges, 76 
percent were actually arrested on sale or intent to sell 
charges and pled down to possession.
    It is also significant to note that despite 15 years of 
continuous increases in the number of non-violent offenders 
sentenced to New York State prison, we have begun to witness a 
stabilization and, in fact, a slight decline in the number of 
non-violent offenders in State prison. Between 1982 and 1995, 
the number of non-violent offenders in New York State prisons 
increased four-fold, from 8,200 in 1982 to 34,000 in 1996. But 
from 1996 to 1997, we witnessed a slight decline, actually 
about 1,000 offenders, in the number of non-violent offenders 
coming into our custody.
    Now, that stabilization can be directly attributed to a 
variety of initiatives that have diverted these otherwise 
prison-bound offenders into alternative treatment programs. 
These programs include drug courts, the DTAP program, initiated 
by District Attorney Hynes in Kings County and now replicated 
by numerous prosecutors throughout the State, and the State 
Willard Drug Treatment Facility, implemented by Governor Pataki 
to provide a 90-day drug treatment program in a secure facility 
for D and E repeat non-violent drug offenders who would 
otherwise be prison-bound. Governor Pataki also implemented a 
merit time program for incarcerated non-violent offenders which 
allows these offenders to be considered for early parole 
release if they take part in and successfully complete in-
prison substance abuse treatment programs.
    Each of these treatment alternatives and early release 
programs have varying degrees of success in terms of reduced 
recidivism rates, perhaps the most successful being the DTAP 
program which reports a recidivism rate of roughly 10 percent 
among its graduates after only 1 year. What is oftentimes 
overlooked in analyzing the success of these programs, however, 
is the fact that the program participants are motivated to 
address their substance abuse because of the lengthy prison 
terms which loom over them. In fact, in a recent Wall Street 
Journal article regarding this very issue, Dr. Mitchell 
Rosenthal, head of the Phoenix House national drug treatment 
organization, which participates in the DTAP program, noted 
that the State's tough drug laws have ``diverted lots of people 
into treatment who wouldn't otherwise go into treatment.''
    I would submit that those who advocate a wholesale repeal 
of New York State's drug laws in favor of treatment for 
substance-abusing offenders actually miss the point or fail to 
appreciate or choose to ignore the realities of the system. 
Perhaps the most compelling argument in favor of maintaining 
tough drug laws as a way to motivate substance-abusing 
offenders is found in the reports of the Kings County DTAP 
program. On average, over 30 percent of the defendants screened 
and deemed eligible for the DTAP program actually declined to 
participate in the 18-month residential program, opting instead 
to go to State prison. This despite the fact, as District 
Attorney Hynes noted, if they successfully complete the 
program, the charges will be dropped and wiped off their 
record. Now, I submit, what are we to do with these categories 
of offenders in the absence of mandatory minimums? Return them 
to the community? I think not.
    In recent years, changes have been made to the New York 
State drug laws to permit certain non-violent offenders to be 
diverted from prison into treatment programs--two examples 
mentioned, the Willard Drug Treatment Facility and the merit 
time program. Those programs, along with DTAP, incorporate a 
``tough but smart'' approach to criminal justice and substance 
abuse. Wholesale repeal of drug laws is a simplistic and 
irresponsible approach to our country's drug problem--
simplistic because it ignores the reality of drug use and 
irresponsible because it would only serve to fuel crime in our 
communities.
    The intrinsic link between crime and drugs is indisputable, 
as any member of this Nation's law enforcement community will 
attest. The 1998 Arrestee Drug Abuse Monitoring program report 
issued by the National Institute of Justice documented that an 
estimated 80 percent of persons arrested each year in New York 
City, regardless of charge, tested positive for drugs. It is 
also no coincidence that when the New York City Police 
Department in 1994, began implementing a targeted and 
comprehensive policing strategy aimed at the street drug trade 
in some of the highest crime areas in that city, those 
communities witnessed unprecedented reductions in crime--
reductions, I might add, which outpaced those in other areas of 
the city. This same trend has been witnessed throughout the 
Nation, as noted in the 1999 National Drug Control Strategy 
report, which reported that drug-related murders decreased by 
42 percent from 1991 to 1997, as drug arrests increased by 57 
percent during that period.
    So, in closing, I would submit that our drug laws work and 
the effective drug treatment options we have operating in New 
York State for drug-addicted offenders are successful because 
of them. Repeal or wholesale revisions to those laws would only 
serve to undermine the successes we have enjoyed over the last 
several years in New York State, with index crime down by 28 
percent since 1994, more than four times the national average, 
and our communities being the safest they have been since the 
1960's.
    Thank you once again for inviting me here today.
    [The prepared statement of Ms. Lapp follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.077
    
    [GRAPHIC] [TIFF OMITTED] T4343.078
    
    [GRAPHIC] [TIFF OMITTED] T4343.079
    
    [GRAPHIC] [TIFF OMITTED] T4343.080
    
    [GRAPHIC] [TIFF OMITTED] T4343.081
    
    [GRAPHIC] [TIFF OMITTED] T4343.082
    
    [GRAPHIC] [TIFF OMITTED] T4343.083
    
    [GRAPHIC] [TIFF OMITTED] T4343.084
    
    [GRAPHIC] [TIFF OMITTED] T4343.085
    
    [GRAPHIC] [TIFF OMITTED] T4343.086
    
    [GRAPHIC] [TIFF OMITTED] T4343.087
    
    [GRAPHIC] [TIFF OMITTED] T4343.088
    
    [GRAPHIC] [TIFF OMITTED] T4343.089
    
    [GRAPHIC] [TIFF OMITTED] T4343.090
    
    [GRAPHIC] [TIFF OMITTED] T4343.091
    
    [GRAPHIC] [TIFF OMITTED] T4343.092
    
    [GRAPHIC] [TIFF OMITTED] T4343.093
    
    [GRAPHIC] [TIFF OMITTED] T4343.094
    
    [GRAPHIC] [TIFF OMITTED] T4343.095
    
    Mr. Mica. Thank you for your testimony.
    We will recognize now Ms. Barbara Broderick, director of 
Adult Services, Administrative Office of the Courts, from 
Arizona.
    Ms. Broderick. Thank you, chairman and members of the 
committee. I would ask to have my written testimony submitted.
    Mr. Mica. Without objection, we will make that part of the 
record. And if you would just pull that mic as close as 
possible, we will be able to hear.
    Ms. Broderick. Sure.
    Mr. Mica. Thank you.
    Ms. Broderick. I also will attempt to shorten my version.
    I am not here to discuss decriminalization of drugs but 
rather, to relate to you a strategy that I think is very 
promising to taxpayers and to public safety. It is a system 
that talks about strong probation with available and effective 
drug treatment services. One point I have to make very clear: 
while the courts can provide you with information, basically, 
on drugs and about drug offenders, we take no position in terms 
of legalization. That rightfully belongs with the legislative 
and the executive branches of Government.
    I am the director, as you stated, of probation programs at 
the State level in Arizona. Our probation system is very 
different than a lot of other States. We are under the auspices 
of the judiciary, and we have a decentralized system with the 
15 counties. Each chief probation officer reports directly to 
the presiding judge of our superior court.
    Another thing that is very fortunate about Arizona, we have 
a very well-funded probation system. I grant you it has 
probably one of the best supervision and control mechanisms in 
the Nation. We have in statute for standard supervision, 1 
officer to 60 adults. For our youth, it is 1 officer to 35. For 
our high-risk felons, it is 2 to 25. When you have a system 
like that, what you start to look for is how do you actually 
bring in the treatment services. That is what was lacking in 
Arizona.
    In 1996, the citizens passed Proposition 200, better known 
as the Drug Medicalization, Prevention and Control Act. This 
particular act, I am happy to say, gave us the ability to bring 
in more drug treatment dollars to the courts, close to $3.1 
million. It also brought in another $3.1 million to a parents 
commission that basically deals with prevention. And it brought 
in another $2.7 million to our Department of Corrections to 
actually place programs in the facilities to deal with 
substance abuse.
    In Arizona, not unlike the rest of the Nation, two out of 
three people on community supervision have a substance abuse 
problem. We also have the ability to use the National Institute 
of Justice's Arrestee Drug Abuse Monitoring Program, better 
known as ADAM, and if you look at the 1998 annual report, you 
will see that Phoenix is listed. Basically, 63 percent of the 
men who are arrested test positive for drugs, and more 
alarming, perhaps, is the fact that 71 percent of the women 
also test positive for drugs.
    The first report I am going to talk to you about--and I 
will be talking about two--is going to be dealing with what we 
call the Drug Treatment and Education Fund. This is the fund 
that was made available through Proposition 200 and came into 
the probation system.
    First, and probably most importantly, the DTEF--as we call 
it, very similar to DTAP--hypothesis is: If substance-abusing 
offenders can be accurately and effectively assessed as to the 
risk and degree of substance abuse, and these offenders can be 
matched with effective treatment interventions determined 
through research to confront their presenting problems, and 
supervised closely by probation, then substance-abusing 
behaviors can be reduced or eliminated, offenders' quality of 
life will improve through recovery, community safety will 
increase, and incarceration will be primarily reserved for the 
violent and chronic offender.
    Now, one problem that emerged with the passage of DTEF was 
the idea that we could not use jail as a sanction for 
revocation. One of the fallacies to that--and that has been a 
part of what the national press has talked about--is we can--it 
is at the discretion of the judge. At the time he or she 
decides to sentence, they can impose up to a year of jail time 
as a condition of probation. And when we find people in non-
compliant behavior, we can go back to the court and ask the 
court to impose a sanction of jail.
    We have also gotten very creative because, as a part of the 
DTEF, we are not allowed to send back first and second non-
violent possessing offenders to prison. So we have gotten very 
creative in terms of the sanctions that we will use. We have 
done things like move people into intensive probation. We have 
moved them into day reporting. There is nothing worse than 
having to come down to a probation office at 7:30 a.m., and 
7:30 p.m. We have also established more and more programs.
    Now, our first year, the accomplishments were very 
encouraging. We created basically 2,600 more treatment slots, 
and they range from everything from education classes right on 
through to long-term residential beds. Arizona is a rural 
State. We have one big metropolitan area and one suburban. We 
have Phoenix and we have Tucson. The rest of the State is very, 
very small. We have actually created a tremendous amount of 
treatment slots in very rural counties.
    What we found was the following: In our first year of 
operation--and it was partial operation--we were able to 
basically match offenders into appropriate treatment over 90 
percent of the time. We were also able to have 932 people go 
through treatment, and 3 out of 5 of those people completed 
successfully.
    Now, one of the problems--or not necessarily a problem--was 
our first year, we did not look at an outcome evaluation. We 
have not found the recidivism data. We do not have quality-of-
life information to give you. We have preliminary results, and 
you have to take these very cautiously. But they are good. We 
basically found that primarily 75 percent of the offenders 
could offset their treatment by at least paying for part of it. 
We also found that about 77 percent of them remained drug-free. 
We also found that probation coupled with treatment was cheaper 
than incarceration.
    Now, the second report that I am going to talk to you about 
is probably more methodologically sound. It is an audit that 
was conducted by our Office of the Auditor General, and they 
came in with a question that was posed by the legislature, and 
I will read the question. The legislature asked: ``How 
effective are substance abuse programs at reducing abuse and 
crime, and do they contribute to the successful completion of 
probation?'' The audit came in and basically had to answer that 
question.
    They looked at 845 cases, randomly selected from four 
counties, representing 80 percent of our population. Those four 
counties had two of the big urban areas and two rurals. 
Basically, what they found out is the following: Probation with 
treatment works. Eighty-five percent, very similar to what D.A. 
Hynes was talking about, of the individuals who were in drug 
treatment and successfully completed it then went on to 
successfully complete probation. This is a 4-year study. Those 
people who were in alcohol treatment with probation, 80 percent 
went on, if they completed treatment, to complete their 
probation successfully. Now, by contrast, those people who 
refused to go into treatment, only 22 percent of them completed 
their probation successfully.
    Another interesting statistic is, only 57 percent of the 
people who were not identified actually were ever able to 
complete the probation.
    I can go on. There are some other interesting ones that 
deal with employment. Ninety percent of the people who are 
consistently employed will do well. Those people who do not 
stay consistently employed will do poorer, about 40 percent, 
and the same is true for those who have paid full restitution 
and do their community work service. People who do their 
probation will do well.
    In conclusion, I just want to talk to you about something 
that Joan Petersilia's work talked about. She is the former 
director of RAND's Criminal Justice Research Center, and she is 
a professor at the University of California at Davis. 
Basically, she recognizes the probation system and the 
treatment system in Arizona as one of the most effective. We 
believe that probationers, if they can become clean and sober, 
will maintain jobs, they will pay in full their restitution, 
and they will live law-abiding lives, resulting in safer 
communities, improved family and social relationships, 
increased productivity and wages, and decreased health costs.
    Thank you very much.
    [The prepared statement of Ms. Broderick follows:]
    [GRAPHIC] [TIFF OMITTED] T4343.096
    
    [GRAPHIC] [TIFF OMITTED] T4343.097
    
    [GRAPHIC] [TIFF OMITTED] T4343.098
    
    [GRAPHIC] [TIFF OMITTED] T4343.099
    
    [GRAPHIC] [TIFF OMITTED] T4343.100
    
    [GRAPHIC] [TIFF OMITTED] T4343.101
    
    [GRAPHIC] [TIFF OMITTED] T4343.102
    
    [GRAPHIC] [TIFF OMITTED] T4343.103
    
    [GRAPHIC] [TIFF OMITTED] T4343.104
    
    [GRAPHIC] [TIFF OMITTED] T4343.105
    
    [GRAPHIC] [TIFF OMITTED] T4343.106
    
    [GRAPHIC] [TIFF OMITTED] T4343.107
    
    [GRAPHIC] [TIFF OMITTED] T4343.108
    
    [GRAPHIC] [TIFF OMITTED] T4343.109
    
    [GRAPHIC] [TIFF OMITTED] T4343.110
    
    [GRAPHIC] [TIFF OMITTED] T4343.111
    
    [GRAPHIC] [TIFF OMITTED] T4343.112
    
    [GRAPHIC] [TIFF OMITTED] T4343.113
    
    [GRAPHIC] [TIFF OMITTED] T4343.114
    
    [GRAPHIC] [TIFF OMITTED] T4343.115
    
    [GRAPHIC] [TIFF OMITTED] T4343.116
    
    [GRAPHIC] [TIFF OMITTED] T4343.117
    
    [GRAPHIC] [TIFF OMITTED] T4343.118
    
    [GRAPHIC] [TIFF OMITTED] T4343.119
    
    [GRAPHIC] [TIFF OMITTED] T4343.120
    
    [GRAPHIC] [TIFF OMITTED] T4343.121
    
    [GRAPHIC] [TIFF OMITTED] T4343.122
    
    [GRAPHIC] [TIFF OMITTED] T4343.123
    
    [GRAPHIC] [TIFF OMITTED] T4343.124
    
    [GRAPHIC] [TIFF OMITTED] T4343.125
    
    [GRAPHIC] [TIFF OMITTED] T4343.126
    
    [GRAPHIC] [TIFF OMITTED] T4343.127
    
    [GRAPHIC] [TIFF OMITTED] T4343.128
    
    [GRAPHIC] [TIFF OMITTED] T4343.129
    
    [GRAPHIC] [TIFF OMITTED] T4343.130
    
    [GRAPHIC] [TIFF OMITTED] T4343.131
    
    [GRAPHIC] [TIFF OMITTED] T4343.132
    
    [GRAPHIC] [TIFF OMITTED] T4343.133
    
    [GRAPHIC] [TIFF OMITTED] T4343.134
    
    [GRAPHIC] [TIFF OMITTED] T4343.135
    
    [GRAPHIC] [TIFF OMITTED] T4343.136
    
    [GRAPHIC] [TIFF OMITTED] T4343.137
    
    [GRAPHIC] [TIFF OMITTED] T4343.138
    
    [GRAPHIC] [TIFF OMITTED] T4343.139
    
    [GRAPHIC] [TIFF OMITTED] T4343.140
    
    [GRAPHIC] [TIFF OMITTED] T4343.141
    
    [GRAPHIC] [TIFF OMITTED] T4343.142
    
    [GRAPHIC] [TIFF OMITTED] T4343.143
    
    [GRAPHIC] [TIFF OMITTED] T4343.144
    
    [GRAPHIC] [TIFF OMITTED] T4343.145
    
    [GRAPHIC] [TIFF OMITTED] T4343.146
    
    [GRAPHIC] [TIFF OMITTED] T4343.147
    
    [GRAPHIC] [TIFF OMITTED] T4343.148
    
    [GRAPHIC] [TIFF OMITTED] T4343.149
    
    [GRAPHIC] [TIFF OMITTED] T4343.150
    
    [GRAPHIC] [TIFF OMITTED] T4343.151
    
    [GRAPHIC] [TIFF OMITTED] T4343.152
    
    [GRAPHIC] [TIFF OMITTED] T4343.153
    
    [GRAPHIC] [TIFF OMITTED] T4343.154
    
    [GRAPHIC] [TIFF OMITTED] T4343.155
    
    [GRAPHIC] [TIFF OMITTED] T4343.156
    
    [GRAPHIC] [TIFF OMITTED] T4343.157
    
    [GRAPHIC] [TIFF OMITTED] T4343.158
    
    [GRAPHIC] [TIFF OMITTED] T4343.159
    
    [GRAPHIC] [TIFF OMITTED] T4343.160
    
    [GRAPHIC] [TIFF OMITTED] T4343.161
    
    [GRAPHIC] [TIFF OMITTED] T4343.162
    
    [GRAPHIC] [TIFF OMITTED] T4343.163
    
    [GRAPHIC] [TIFF OMITTED] T4343.164
    
    [GRAPHIC] [TIFF OMITTED] T4343.165
    
    [GRAPHIC] [TIFF OMITTED] T4343.166
    
    [GRAPHIC] [TIFF OMITTED] T4343.167
    
    [GRAPHIC] [TIFF OMITTED] T4343.168
    
    [GRAPHIC] [TIFF OMITTED] T4343.169
    
    [GRAPHIC] [TIFF OMITTED] T4343.170
    
    [GRAPHIC] [TIFF OMITTED] T4343.171
    
    [GRAPHIC] [TIFF OMITTED] T4343.172
    
    [GRAPHIC] [TIFF OMITTED] T4343.173
    
    [GRAPHIC] [TIFF OMITTED] T4343.174
    
    [GRAPHIC] [TIFF OMITTED] T4343.175
    
    [GRAPHIC] [TIFF OMITTED] T4343.176
    
    Mr. Mica. We thank each of you for your testimony.
    Mr. Hynes. Mr. Chairman, may I ask for your indulgence to 
have 1 minute for Mr. Cohen?
    Mr. Mica. Yes, in just 1 second. I want to make this 
announcement to the panel before I lose some of these folks.
    I was informed by the Attorney General yesterday evening 
that the Mexican Supreme Court ruled in favor of extradition 
for Mr. Del Toro. Several weeks ago, we had a very compelling 
hearing about the problem with extradition of that individual. 
I don't know that this is the case. The Attorney General told 
me, I believe, yesterday or today, he will be extradited to the 
United States. So I do want to thank all of the members of the 
panel. Mr. Miller also asked me to convey his thanks to you, 
and those of you who participated in the hearing, we appreciate 
it.
    Yes?
    Mr. Barr. Did the Justice Department have to agree not to 
seek the death penalty, though?
    Mr. Mica. Yes.
    Mr. Barr. Is that the price----
    Mr. Mica. That is the unfortunate part. I did talk to Mr. 
Bellush yesterday. It is unfortunate that is one of the 
conditions which Mexico insists on for all their extraditions. 
But at least there will be some justice in the case. So I do 
thank you, and we also received the thanks of Mr. Bellush and 
his family yesterday.
    Mrs. Mink. Will the chairman yield?
    Mr. Mica. Yes.
    Mrs. Mink. I would like to commend the chairman and our 
colleague, Mr. Miller, for bringing the matter to the 
subcommittee and giving us an opportunity to have input. I 
would particularly like to compliment my colleague, Mr. 
Cummings, for his role in achieving this result. It is a 
tribute to your leadership, Mr. Chairman.
    Mr. Mica. Well, as I told the press, we were fortunate on 
that case. But we still have 274 to go, so we can only pat 
ourselves on the back a little bit. But, again, after that 
hearing, I think everyone feels a little bit of satisfaction in 
what we were able to achieve. So thank you.
    I do apologize. I meant to do that at the beginning of the 
hearing and didn't get a chance to inform my colleagues on the 
panel of that information.
    You were going to introduce this gentleman?
    Mr. Hynes. Frederick Cohen is a 1995 graduate of the drug 
treatment program. I know he has no more than 1 minute to talk 
to you about his experience.
    Mr. Mica. Mr. Cohen, if you could come up, and would you 
mind just standing for a second and being sworn?
    [Witness sworn.]
    Mr. Mica. Thank you and welcome, and we will recognize you 
for a statement.

   STATEMENT OF FREDERICK COHEN, GRADUATE OF DRUG TREATMENT 
                 ALTERNATIVE TO PRISON PROGRAM

    Mr. Cohen. Thank you. Thank you very much, Chairman Mica, 
for having me and allowing me 1 minute to briefly speak to you.
    I heard a lot of interesting things today in discussing the 
legalization of drugs. A lot of things were rallying to my 
ears. I want to share with you briefly, a story about a drug 
history and an outcome, a personal story.
    At the age of 9 to 11, I began drinking alcohol and smoking 
marijuana, which for me, marijuana was a gateway drug which led 
me to use other drugs. By the age of 14, I had done PCP, LSD, 
cocaine, Valium, and hashish. I had experimented with 
mushrooms, assorted hallucinogens. In fact, this was in the 
early 1980's. I had done Ectasy at that time. I frequented the 
Washington, DC, area and tried what they called Love Boat at 
that time, which was PCP sprinkled over marijuana. By the time 
I was 16, I actually began to sell drugs in order to support my 
habit. At the same time, I committed petty non-violent crimes 
to obtain money to support this habit.
    It was at that time that I understood that if I wanted to 
get high, I would have to devise a way to do so. So I began to 
sell drugs, and I would take the profits that I made selling 
drugs to supply my habit. This continued and by the time I was 
22 years old, I was smoking crack daily in the streets of New 
York. I met all the criteria for chemical dependency at that 
time, and I continued to use drugs for 4 years after that, 
despite the negative consequences.
    And you may ask yourself, what type of background did I 
have and what type of life did I lead during this time? Well, I 
was a Boy Scout. I was a Cub Scout, and I went to Weplo and I 
became a first-class Boy Scout as a juvenile. I graduated 
valedictorian from a private high school in New York City. From 
there I went on to college with hopes and dreams of becoming a 
computer scientist. All during this time I was using drugs. I 
dropped out of college because my chemical dependency problem 
caught up with me and I could no longer concentrate on my 
studies.
    I remember leaving college and obtaining certain types of 
employment from bank tellers to computer operators to 
accountants to construction workers and security guards. All 
jobs were lost due to my chemical dependency problem, the 
absenteeism and the tardiness.
    I remember getting arrested on several occasions for petty 
crimes, for petty possessions, and doing small amounts of time, 
up to a year. None of this was a deterrent for my substance 
abuse problem. I remember the hardship. I remember the 
homelessness. None of this was a deterrent. I remember losing 
my family, losing my friends, and yet still I used substances.
    The only deterrent for me was the threat of serious 
sentencing from the district attorney's office of Kings County. 
I was arrested again, for a second felon, and I faced a minimum 
of 4\1/2\ to 9 years. It was at that point that the district 
attorney's office actually offered me an opportunity to get my 
life together. It was either I do the minimum sentence of 4\1/
2\ years or I opt for a drug treatment alternative to prison 
program and get my life together with the promise of the case 
being dismissed. The district attorney's office gave me another 
opportunity at life.
    It was at that point that I realized the destruction that 
the chemical dependency had caused in my life, and I took 
advantage of that opportunity. I took advantage of the 
opportunity because the manipulative, addictive mind-set said, 
``Hey, 18 to 24 months is far better than 4\1/2\ to 9 years.'' 
I went into the program, I excelled, and I found out a lot of 
things about myself, about drug use, about how to restructure 
my life, and about how to be responsible.
    To make a long story short, I went from a welfare 
recipient, a beggar on the street, to the program director at 
the Project Return Foundation where I make over $45,000 a year. 
I pay over $10,000 a year in taxes today. I am a home owner. I 
pay property taxes. And I am a voting American citizen.
    In conclusion, I just want to say that legalizing drugs 
perpetuates the illness. Arresting people actually bandages the 
illness. Arresting people with an alternative to incarceration 
remedies the illness.
    I want to thank the committee for hearing me. I want to 
thank District Attorney, Charles Hynes, for saving my life. I 
want to thank the assistant district attorney, Samaritan 
Village, and the Project Return Foundation for all their help 
and all their efforts.
    Thank you once again.
    Mr. Mica. Thank you for your testimony. I think you have 
provided an interesting chronology of how this whole problem 
has affected you personally. It doesn't sound like you would be 
much of an advocate then for reducing tough enforcement. It 
sounds like tough enforcement is the only thing that got you to 
the point where you had to choose. Is that correct?
    Mr. Cohen. That is absolutely correct.
    Mr. Mica. What do you think, time to liberalize some of 
these tough laws, Mr. Hynes?
    Mr. Hynes. Mr. Chairman, as I said, these harsh laws we use 
as creating an opportunity to have people save their lives. And 
if we are going to make modification of the so-called 
Rockefeller drug laws, we better do it with mandated treatment.
    Mr. Mica. Did they alter the laws to give you the 
discretion at that point? Or was there enough----
    Mr. Hynes. Sir, I have an obligation. Once a grand jury 
returns an indictment in these kinds of cases, I lose all 
discretion. This is pre-indictment.
    Mr. Mica. Pre-indictment.
    Mr. Hynes. Yes.
    Mr. Mica. It was interesting to hear Ms. Broderick. I have 
heard quite a bit about the Arizona--I don't want to say 
experiment--but the Arizona approach and some of the 
preliminary data. You are telling us that there is not a 
decriminalization under this law. Is that correct?
    Ms. Broderick. Probation is a very strong and viable 
sanction in Arizona.
    Mr. Mica. But you told us, you said that you can still--you 
hold over their heads----
    Ms. Broderick. Correct.
    Mr. Mica [continuing]. Incarceration and the tough penalty.
    Ms. Broderick. The judge may impose that as a condition of 
probation.
    Mr. Mica. So it is actually withheld based on a 
performance, but some 30 percent are sent back to the--or I 
forget what your failure rate. I guess it varies?
    Ms. Broderick. Actually, there are two things going on 
here. One is the way in which a person is sentenced, and the 
way the sentencing laws are in Arizona, for first-time 
possession and second-time possession, the person must be 
sentenced to probation. In Arizona----
    Mr. Mica. OK. That is important. You said first-time 
possession?
    Ms. Broderick. And second-time possession. People must get 
probation, and there must be no violence in their background. 
And it is an incident of violence, which means a simple arrest. 
So it is truly first-time drug possession, second-time drug 
possession.
    Mr. Mica. First-time drug possession is mandatory 
probation, but with the caveat that there can be some 
incarceration if they don't complete their probation.
    Ms. Broderick. Correct. As a condition of probation, a 
judge may impose up to a year of jail.
    Mr. Mica. OK. That is different than what the public 
perception is.
    Ms. Broderick. Correct, and that is one of the 
clarifications I wanted----
    Mr. Mica. I have not seen that in any of the news stories 
or editorials that I have read to date. And the second time, 
how does it----
    Ms. Broderick. Same thing. The judge can impose up to a 
year of deferred jail time. Now, why there is some confusion is 
the fact that in the revocation process, which is a way in 
which probation usually comes forward and says to the judge we 
would like this person to be revoked, we no longer have that as 
an option if there is just simple non-compliance and the year 
jail time that has been deferred has been used up. So that is 
probably where some of the confusion may be.
    Mr. Mica. And what substances are taken into account by 
first-time possession? Is that marijuana, cocaine, heroin, 
methamphetamine, all drugs?
    Ms. Broderick. All drugs.
    Mr. Mica. And what about quantities?
    Ms. Broderick. That varies depending on----
    Mr. Mica. What is the triggering----
    Ms. Broderick. I don't know off the top of my head. I am 
sorry. I can tell you that the bulk of people that are coming 
through are principally methamphetamine--I look no different 
than Iowa--and marijuana.
    Mr. Mica. And I heard small numbers quoted here, like you 
said 932 have been in that program?
    Ms. Broderick. Correct. The program----
    Mr. Mica. Over what period of time?
    Ms. Broderick. It is 1 year.
    Mr. Mica. So for 1 year.
    Ms. Broderick. Correct.
    Mr. Mica. And how big is your prison population?
    Ms. Broderick. About 27,000, and under probation we have 
about 35,000.
    Mr. Mica. But in your program, under probation in your 
program, it has only been 932?
    Ms. Broderick. 2,622 people actually received services.
    Mr. Mica. I am sorry, 2,000?
    Ms. Broderick. 2,622, and 932 in a given year graduated, 
either successfully or not. Like I said, three out of five were 
successful and two out of five were not, and they went on 
either to be reassessed and placed in a different type of 
treatment, or they committed a new crime or perhaps absconded.
    Mr. Mica. Has this resulted in any decrease in your prison 
population?
    Ms. Broderick. That is a very difficult question to answer 
and something that we will be looking to in the future. But 
Arizona is a growth State, so one has to take into account the 
numbers coming into the State. So our at-risk population keeps 
growing.
    Mr. Mica. But if I go back and look at 1996--when did this 
start, 1995?
    Ms. Broderick. The law was passed in 1996. The program 
became effective in 1997.
    Mr. Mica. So we would look at 1997 and 1998, and we factor 
in population growth, too. But do you know if the population 
incarcerated in the State prison has increased or decreased?
    Ms. Broderick. I am assuming it has increased because the 
population on probation has also increased. Our population 
growth is just so great, and there are other factors that are 
going on, being a border State with Mexico.
    Mr. Mica. And your crime, though, is generally down, 
according to national trends?
    Ms. Broderick. Unfortunately, Phoenix is not one of the 
cities that is down.
    Mr. Mica. Phoenix is not down?
    Ms. Broderick. No.
    Mr. Mica. Does that mean the State is not down?
    Ms. Broderick. I think where goes Phoenix, so goes the 
State.
    Mr. Mica. So the State is not down, either?
    Ms. Broderick. Correct.
    Mr. Mica. Because I look at your prison population and the 
crime rate, I know--I come from a growth State, Florida, and we 
have a lot of that. But most of the people who come to our 
State are the least likely to commit crimes unless it is----
    Ms. Broderick. Not that I want to have a commerce debate 
with you----
    Mr. Mica [continuing]. Driving behind the wheel of their 
car and not being able to see the dashboard. But we won't get 
into that.
    Ms. Broderick. That fits two sections of our State, also.
    Mr. Mica. I have heard a lot about the DTAP program. It is 
impressive, and certainly this gentleman that you brought along 
is an example. DTAP, though, is part of a very tough--now, 
Kings--I don't--I am the fourth one from New York. I am from 
upstate New York, but I am not that familiar with the city 
geography. Kings County, is that part of the metropolitan----
    Mr. Hynes. We are one of the five counties of New York 
City. We are the largest county in New York State by 
population.
    Mr. Mica. Now, where does Giuliani fit into the picture? Is 
he also----
    Mr. Hynes. Anywhere he wants to be, Mr. Chairman.
    Mr. Mica. But is the--would he be the mayor of----
    Mr. Hynes. He is the mayor of the five counties of New York 
City.
    Mr. Mica. OK. That is my question. He has had a tough 
enforcement policy.
    Mr. Hynes. Yes.
    Mr. Mica. And you, therefore, have had a tough enforcement 
policy combined with this program, which--and you said this is 
pre-indictment or----
    Mr. Hynes. It is pre-indictment, and I must make a point 
that there are some good things that preceded the mayor. He is 
not responsible for all the good things that happened in New 
York City.
    Mr. Mica. You know what? We don't want to hear that. 
[Laughter.]
    But it is impressive.
    Mr. Hynes. Yes, it is.
    Mr. Mica. By any standard.
    Mr. Hynes. I can tell you that the crime reductions are 
extraordinary. We have a 61 percent reduction since 1990, in 
the seven major categories of crime, the index crimes. It is 
really extraordinary. But I believe it is fundamentally part of 
the strategy of being very, very tough on violent crime and 
drug traffickers that are not addicted and having this piece 
put in, which is to offer an opportunity, as we did for Mr. 
Cohen.
    The third part of the fundamental change is we have an 
extraordinary education program. We have had 135,000 kids 
through our program since 1990, 10 hours a month for the entire 
school year, which is run by my prosecutors who teach kids two 
essential values: that it is wrong to hate anyone regardless of 
what the difference might be, and that drugs are about death. 
It has been an extraordinary program. It has been replicated in 
about 12 cities in America and about 8 counties in the State.
    So I think it has got to be a coordinated strategy. I don't 
think anyone would suggest that prison alone works. It has to 
be a much broader strategy.
    Mr. Mica. Now, you also had some numbers. I thought I had 
them down here, but I don't----
    Mr. Hynes. There are 398 graduates, Mr. Chairman.
    Mr. Mica. OK. But that is not a whole lot of----
    Mr. Hynes. No, it is not. But if you begin to look at the 
numbers, I mean, Ryker's Island, which is our local prison, the 
cost, I think, will astound you. It is $69,000 for 1 year. Now, 
it takes us about 6 months to get someone involved in drugs out 
of the downstate prison up to upstate. So it is about $34,500 
for 6 months of incarceration. Then we ship them upstate for 
the remainder of their sentence, and you are talking about 
another $15,000 for that second 6 months, and then $30,000 for 
the next year and subsequent years. So while the numbers seem, 
I guess, a drop in the bucket, if you begin to look at all of 
the money--this is Anne Sweren, who is my deputy. She gives me 
charts because I can't read. She would be more than happy to 
explain them if you would like.
    But if you look at the money that is spent, for this 398 
population, it is extraordinary. It is $14 million, and that is 
documented.
    Mr. Mica. Well, I don't want to hog all the time. Mr. 
Cummings.
    Mr. Cummings. Yes, thank you very much, Mr. Chairman.
    Mr. Hynes, let me ask you, one of the problems that a lot 
of jurisdictions face is trying to figure out how to have 
effective drug treatment.
    Mr. Hynes. Well, you begin with a very preliminary problem. 
When you talk about drug treatment, you are almost always 
accused of being soft on crime. It took us a long time to be 
able to get the word out that you can do this thing in a tough, 
coercive way. I tell the story of one of my colleagues that 
someone from the public defender's office wanted to help us run 
the program, and I told him I didn't need his help, I will run 
the program, I will decide who goes into my program. We 
typically knock out two-thirds of the people who are eligible. 
As was mentioned before by Ms. Lapp, you will get 30 percent 
who won't take the program because it is too tough.
    I think the prosecutors have got to make the argument that 
you can't continue to build prisons without alternative 
strategies. Prisons ought to be used for people who you can 
send away until they are too old to hurt people, too old to 
commit crime. But I think you have got to look at a strategy 
that says let's give someone like Fred Cohen a chance, let's 
try it because it works. So there has to be, I think, a much 
broader strategy.
    I am the director for New York State representing the 62 
counties on the national board, and I say to my colleagues all 
over the country that it is a program that works, you ought to 
try it. But you are going to have to deal with the reality. 
When you initially talk about it, people are going to look at 
you askance and wonder if you are soft on crime all of a 
sudden.
    Mr. Cummings. Well, thank you for that response, but that 
wasn't my question. Let me try to zero in on what I am talking 
about.
    When I say effective, I mean the treatment itself. In other 
words, in Maryland, we have a lot of treatment programs, but 
the question is whether they are effective with the individual. 
Do you follow what I am saying?
    Mr. Hynes. I understand.
    Mr. Cummings. We have a lot of people throughout, and--wait 
a minute, hold on--and I guess what I am trying to get to, is 
it is clear, based upon what you have just said, that you have 
a lot of confidence in the program itself.
    Mr. Hynes. Right.
    Mr. Cummings. And I am asking you, what does that program 
entail, and apparently it is effective, so how do you make 
sure----
    Mr. Hynes. I apologize for misunderstanding.
    Mr. Cummings. No, that is OK. It is no problem.
    Mr. Hynes. But let me tell you what--let me tell you about 
the Holy Grail of this program--jobs. Because if you have a 
drug treatment program and there is no job component, you are 
going to get a 12 to 14 percent success rate.
    By the way, I take that, but it doesn't work unless you 
have jobs, and that is why our retention rate jumps up to 66 
percent after 1 year. If you can create a model in Maryland or 
Indiana or Georgia or anywhere you want, create a model that 
has tough, coercive alternatives and a job component at the end 
of the program, you are going to get success.
    Mr. Cummings. You know, it is interesting. Before I came to 
Congress--this is an interesting point you just made. Before I 
came to Congress, I created a program in my church where we 
worked with people who were coming out of boot camp programs, 
and not 1 dime of Government money was used, all volunteers, 
young men like the young man sitting there, who wanted to help 
and advise. But one of the key pieces of it was, the business 
community got involved and helped folk with jobs. You are 
absolutely right.
    We saw things began to really change. We saw people who--
guys would come up to us and say, you know, a light bulb came 
on because now I am working and I am getting the treatment. Now 
I have found that fun is being with my 2-year-old as opposed to 
standing on the corner. And I guess the job thing allows--does 
something else. What I noticed is, a lot of the problem was, 
these guys would come out of prison and go right back to the 
corner. And if they could just stay away from the corner, that 
would be very, very helpful.
    Mr. Hynes. The breakthrough in our program was going to a 
plant manager of a major corporation in Brooklyn and saying 
this is what I have in mind, and he just looked at me, and he 
said, ``Listen, you know, I know you from a lot of other jobs 
you had, I mean, you want to put junkies on my factory floor?'' 
And I said, ``do you have an alcohol rehab program?'' He said, 
``Of course, we do, very progressive.'' I said, ``I will give 
you the same quality, and maybe even better.'' And that broke 
through.
    Now, Anne Sweren, who is my deputy who runs the program, 
just had a meeting the other day, a luncheon meeting. We had 45 
business people. They are on line waiting to hire my people. It 
is the breakthrough. And everywhere it has been tried, it is 
very successful.
    Mr. Cummings. And is there monitoring with regard to those? 
When you send somebody to get a job, do you monitor them, too?
    Mr. Hynes. Yes, sir, we do.
    Mr. Cummings. To what extent? I mean, is it just checking 
the drug use, or is it more than that?
    Mr. Hynes. Well, I mean, the drug use ultimately leads to 
arrest. We do have our failures, no question about it. But we 
regularly check in with our work force, and we find a great 
deal of success. And you are right, if they are not hanging out 
on the street corner, they feel good about themselves and the 
edge of success is assured.
    Mr. Cummings. Thank you.
    Mr. Mica. Mr. Barr.
    Mr. Barr. Mr. Hynes, you may have covered this, and if you 
did, I apologize. But what if somebody goes through the DTAP 
program and then later on there is a problem? They successfully 
complete it and later on they have a problem.
    Mr. Hynes. There is no longer a chance. They have had their 
chance. But the more difficult thing is that someone might go 
through it for 19 months and walk away, Mr. Barr. And we have 
an enforcement team that is very effective. We pick them up. 
They don't get time served for a minute in our program. And 
they know it. They know it when they go in. So they go back to 
the original sentence.
    Mr. Barr. That is very similar to a first offender program, 
for example, that we have in Georgia that applies.
    Mr. Hynes. Yes.
    Mr. Barr. When you first instituted this program, was 
everybody on board, or did you have some detractors?
    Mr. Hynes. Heavens no. I mean, people on my own staff said, 
``Are you crazy? You have to run for office. If, God forbid, 
someone walks off the program and hurts someone, you know, how 
are you going to face the people?'' And I said, ``I am going to 
say a prayer every day,'' and thank God we have never had a 
problem. But, sure, there was a great deal of resistance.
    Mr. Barr. What was the general nature of that? I know there 
seems to be always inherent opposition to anything that changes 
the status quo. But how would you summarize the type of 
opposition that you faced?
    Mr. Hynes. It was political fear. It was that simple. 
People on my staff were saying--you know, I had a lot of 
appointed jobs. I was in private practice a lot of years, but I 
had a lot of appointed jobs. I was the fire commissioner of New 
York City. And someone said, you know, this is the first time 
you have run and been elected to something, and you better be 
very careful. And I said, look, if we are going to remain--you 
know, maintain the status quo, as you suggest, Mr. Barr--and 
you have been a prosecutor--you will never get a change. So we 
took the chance and it has worked, and my only disappointment 
is that it has not expanded to the extent that it can. We have 
had great support from Governor Pataki through his criminal 
justice adviser, Katie Lapp, but we have--there is unending 
conflict in our legislature with the two houses represented by 
two different parties, and it is difficult to get agreement on 
expansion.
    Mr. Barr. How about within the city? The chairman mentioned 
the mayor. Do you work with him? Do you have a good 
relationship?
    Mr. Hynes. Yes, the mayor has been supportive. The city 
council, you know, funds most of my budget, and we get approval 
from that segment. But most of our funding comes from the 
State.
    Mr. Barr. Have you discussed this program and received 
support or have others taken it on? And a couple come to my 
mind, the National District Attorneys Association?
    Mr. Hynes. Oh, yes. I represent the State on the board, and 
some counties are very, very interested. The problem is two 
things: first, getting beyond the reaction, the visceral 
reaction that, you know, you are going to put people like this 
in a program? I don't know if I should take that chance. But 
once you get beyond that, the money saved is demonstrable. And 
once we get beyond that, I think it is pretty easy, but it is 
the first step.
    Mr. Barr. How about the folks at Main Justice?
    Mr. Hynes. I have had a number of conversations with the 
Attorney General. She has been very helpful to us in supporting 
the program. Actually, she came up to--the corporation that 
first signed on was Pfizer, and she came up to the anniversary 
of Pfizer a couple of weeks ago in Brooklyn, and she was very 
pleased to hear from this former plant chairman how happy he 
was with the program.
    Mr. Barr. Is there anything in particular that we could do, 
both on this subcommittee as well as, perhaps, the Congress 
generally?
    Mr. Hynes. It is all about resources, Representative Barr. 
If we had money to expand this program by perhaps 4,000 or 
5,000 slots, I think we could effect an incredible change in 
public safety, even for all of the positive changes we have in 
my city and my State. I think the more people we could put into 
this program and turn them from drug addict criminals into 
taxpayers, the better it would be for public safety. So if we 
could get some kind of visible support through direct grants to 
prosecutors, through the State DAs Association, that would be 
terrific, through the National DAs Association, that would be 
great.
    Mr. Barr. And you don't receive any Federal funds for the 
program?
    Mr. Hynes. Well, most of the Federal funds are--if they are 
targeted, they go through the State government, and Ms. Lapp 
can speak to that more eloquently than I can. But I think we 
have had a number of conversations with----
    Mr. Barr. Another chart you can't read?
    Mr. Hynes. No. This is from Katie Lapp. The Byrne money has 
been cut by 10 percent during the current budget. Restoring 
that would be very helpful. But the Deputy Attorney General, 
Eric Holder, had a conference of about 25 prosecutors around 
the country, and Ralph Martin from Boston, whom I am sure you 
are familiar with, complained to him that, you know, if you 
don't have a particularly good idea and someone happens to slip 
it to you, you get funded. But if you got a great idea and you 
want to expand it, you have no money for enhancement. Eric 
Holder is now committed to helping us with direct grants to 
prosecutors to allow us to enhance programs. So if we get some 
support from the Congress, this committee, you know, for drug 
treatment expansion, that would be wonderful.
    Mr. Barr. Thank you very much.
    Mr. Hynes. Thank you, sir.
    Mr. Mica. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Hynes. I am a lawyer, Mr. Ose, I am sorry to say.
    Mr. Ose. I am sorry?
    Mr. Hynes. I am a lawyer, I am sorry to say.
    Mr. Ose. Well, we will see how you are.
    Mr. Hynes. OK.
    Mr. Ose. I look at the testimony, your written testimony 
here on page 4, and it highlights the difference after a 3-year 
treatment period, really highlighting the difference of about 
25 percent, that being the differential from the two treatment 
modalities.
    Mr. Hynes. No, it is from treatment as opposed to prison.
    Mr. Ose. Well, treatment--not treatment in the sense of 
medical treatment, but how you treat the person that is there 
in front of you in court.
    Mr. Hynes. Right.
    Mr. Ose. There is a 25 percent difference in terms of re-
arresting, equating to around $14 million in reduced criminal 
justice costs.
    Mr. Hynes. Right.
    Mr. Ose. And health and welfare costs. That is remarkable. 
That is only 400 people?
    Mr. Hynes. That is right.
    Mr. Ose. That is remarkable.
    Mr. Hynes. I think, as I said to my associate coming over 
here, the true figure is a heck of a lot higher, and I will 
tell you why. The average drug addict goes to jail for life on 
the installment plan. So if you took half those people, you are 
talking over a 50-year life expectancy--you know, a 50-year 
life of crime, you are talking about a lot of money.
    Mr. Ose. Because that $14 million only relates to a 3-year 
period.
    Mr. Hynes. Yes, sir.
    Mr. Ose. Now, the other question I have, Ms. Lapp, you 
have--I am not quite sure I read it here other than maybe 
implicitly, but both of you--I am sorry, Ms. Broderick. I 
haven't quite read your testimony yet. Both of you suggest that 
repeal of drug laws will not satisfy or address our problem, 
and I perceive there is concern on both your parts that, in 
fact, this is inappropriate behavior on people's part and we 
need to help them stop this behavior. Am I correct in that?
    Mr. Hynes. Well, Mr. Ose, we were well served, I think, by 
the testimony of this young man, and I don't think you were in 
the room. What he said was very, very clear. It wasn't until he 
faced 4\1/2\ to 9 years in prison that we got his attention, 
and so he would believe that harsh punishment led him to change 
his life. He is now a program director of a major agency and 
paying $10,000 a year in income tax.
    Mr. Ose. The reason I asked that question, I could hardly 
contain my disbelief at the testimony from some members of the 
second panel that marijuana in particular is a behavioral 
pattern that we should overlook. Is it your conclusion that we 
should or should not overlook marijuana use?
    Mr. Hynes. I don't believe for a moment that we should 
overlook marijuana use. Indeed, the testimony of Frederick 
Cohen a few minutes ago was that he began his substance 
problems with marijuana and booze. You know, I have heard 
marijuana advocates say endlessly that there is no data that 
would suggest that because you use marijuana you naturally will 
go on to the next drug. I look at it in the reverse way. If you 
speak to the average hard-core drug abuser, they will tell you 
that certainly marijuana was their first introduction to drugs.
    Mr. Ose. Their gateway.
    Mr. Hynes. Yes, their gateway, right. And that is exactly 
the word Mr. Cohen used.
    Mr. Ose. Mr. Chairman, I can't--I sat here literally in 
disbelief at the second panel to have that gentleman suggest 
that we should over--I just--I am sorry. I had to leave the 
room. And I thank you for tolerating this. Thank you.
    Mr. Mica. Don't leave the room. Stay and engage, Mr. Ose. 
It is more fun that way.
    We appreciate all of the testimony. It is fascinating to 
hear more about the Arizona experience, and, again, we would 
like to get some additional data, I think, on that approach. 
You know, we have a responsibility here to see what is going on 
across the country and what is effective and what isn't 
effective. And we do spend a lot of money. Believe it or not, I 
think, in the last 6 years, we have almost doubled the 
treatment money from the Federal level, which filters down into 
the State level and these local programs. Mr. Barr just said 
that if the New York State program is effective, then we should 
make certain that funds get to these programs that are 
effective. That is all I care about, that it is effective and 
we are doing something about the problem Mr. Cummings has in 
Baltimore or New York or Arizona or wherever it may be. I think 
that is our major interest.
    So we would like to hear more about your program. Did you 
want to comment?
    Ms. Broderick. Chairman Mica, there is going to be a full-
blown evaluation that will be done looking at it after we 
really have been in existence a little bit longer. I was 
required by the law to do an initial report, and it basically--
that initial report that really got a lot of attention was 
about a first-year implementation program, going to what 
Congressman Cummings was talking about in terms of best 
practice. We are working with all 15 departments to try and 
come up with research-based best practice so we can go out and 
contract with really good, effective treatment providers. So 
hopefully, about 10 months from now, you will see some long-
term evaluation that really gets to outcome, not the 
preliminary data that we talked about.
    The other thing, if I can just put in a pitch to 
Congressman Barr, there is some funding for residential 
substance abuse and treatment, RSAT. It is not available to 
community corrections. It is only for institutions. It would be 
wonderful if you could see if there is a way to open up some of 
that funding so that probation departments and not-for-profits 
and ATI programs could actually access some of that.
    Mr. Barr. Could I just ask one quick question on that, Mr. 
Chairman?
    Mr. Mica. Go right ahead.
    Mr. Barr. Would you send me, either directly or through the 
chairman, either way, just a few details on that so that we 
could maybe draft something up?
    Ms. Broderick. Sure, I would be glad to.
    Mr. Barr. Thank you.
    Mr. Mica. The other thing we planned to look at as a panel 
is the amount--the way this money filters down to the States 
and the programs. I believe it is administered by SAMHSA, and 
the preliminary information is that we spend an incredible 
amount on administering the programs and the grants, and they 
end up going into State programs or local programs that are 
already in existence, that already get State money. I think it 
was $129 million we have identified in overhead, which sounds 
like just paring that down and maybe going to a grant system to 
these locales we could put, let's say, $120 million into the 
system and use $9 million to administer, dividing it up, which 
seems like it would be much more effective.
    The other thing we did in some of our preliminary studies--
and we used Florida as an example when I had to testify 
before--not testify, but participate in a State summit. We 
found an interesting phenomenon in Florida, and we will see if 
it is repeated across the country, which, in fact, the Federal 
Government has dramatically increased the amount of treatment 
money. But then we are finding that the States--in particular, 
we verified that with Florida. As the Feds increased the money 
to the States for treatment, the legislatures decreased the 
amount. And it was one of these things, we went up, they went 
down, and so the money was being shuffled around at the State 
level. And we need to look at that because we want the money to 
go into the programs.
    Then the third area is the effectiveness of the programs. 
Unfortunately, some of the secular programs have had very 
dismal rates of success. Some of those that have been non-
secular, private and some with a religious connection, have 
been highly successful, and some of those are not eligible for 
Federal funding, which I think we are doing a re-examination 
of. All we care about is success, and we are trying to evaluate 
that.
    In 10 months, Ms. Broderick, we will invite you back, maybe 
11 months, and we would like to hear more of your program and 
the specifics and see what we can do to get additional funds 
and resources into programs that obviously are effective.
    It does appear that decriminalization, we have some real 
problems with it, and there is a lot of mess out there about 
it. The study that you conducted, Ms. Lapp, in New York is 
really outstanding. It is probably the most recent. Was it 
completed in April?
    Ms. Lapp. Yes, it was issued in April.
    Mr. Mica. And it does debunk some of the myths that we 
have, just first-time offenders in prison in New York. In fact, 
I think even the cases where you cited there for possession 
were, in fact, almost all--what do you say--something down, 
taking the sentence----
    Ms. Lapp. Oh, pled down.
    Mr. Mica. Pled down, exactly. That is the term I was 
looking for. So that as far as pure possession, there were very 
few, if any, incarcerated in New York for first-time possession 
offenses. Is that correct?
    Ms. Lapp. That is correct. One of the purposes of the 
report was actually to just synopsize who was actually in our 
State prison system and for what types of offenses because we 
have had substantial debate about the Rockefeller drug laws. 
There have been a lot of advocates seeking to repeal, wholesale 
repeal, of those laws. And one of the things--I just wanted to 
segue a little bit. Before I took my current position with 
Governor Pataki, I worked for Mayor Giuliani for 4 years, and 
what we did in the city, which now dovetails with what the 
State has been doing, is we took a very intensive and targeted 
approach to all drug dealing and drug possession.
    Mr. Mica. All drug dealing?
    Ms. Lapp. And possession.
    Mr. Mica. OK.
    Ms. Lapp. But prior to 1994, one of the problems that the 
police department had was that uniformed police officers were 
discouraged, actually not allowed to make any arrests of drug 
dealers on the street. They used undercover units to do that. 
Mayor Giuliani turned that around and told the police officers, 
you see drug dealers on the corner, on the stoop, in the 
playground, we want them arrested, we want them to go to jail, 
we want them to go to prison. That is what happened.
    For drug possessors--and we enforce laws and district 
attorneys such as District Attorney Hynes enforce those laws 
very vigorously against possessors with substance abuse 
problems and put them into programs that work--DTAP and some of 
the others.
    One of the interesting things that happened in New York 
State is despite increased arrests at an all-time high of all 
felony levels, and particularly drug offenses, we saw a 
reduction in the jail population in Ryker's Island. It is down 
to about 15,000. It used to be over 23,000 in 1994. New York 
State's prison system essentially remained the same; 70,000 of 
the population remained the same since 1994.
    What happened was, the makeup of the prison population 
changed. We are holding the violent felony offenders for longer 
periods of time, and we are allowing appropriate non-violent 
felony offenders to go into treatment programs like DTAP, like 
merit time, like some of the others that I mentioned.
    What that allowed us to do was, unlike the prior 
administration, which released a high number of violent felony 
offenders on work release, we kept them in prison. That helped 
the police officers on the street, it helped prosecutors like 
District Attorney Hynes, because they weren't seeing those 
people come back again. They were being released into our 
community, recidivating in violent ways--and I am talking about 
violent felony offenders--and the police officers were just 
continually arresting them and sending them to--being 
prosecuted and sending them to State prison. So what we have 
done is hold the right people in prison, prosecute them, hold 
them for longer periods of time, not allow early parole 
release. We ended early parole discretionary release for all 
violent felons, and we screened, very appropriately, the non-
violent felons, drug offenders, that would otherwise go into 
State prison to go into DTAP and some of the others.
    Mr. Mica. So your violent folks are staying behind bars?
    Ms. Lapp. That is right.
    Mr. Mica. The non-violent ones are getting a chance at 
probation?
    Ms. Lapp. That is right, or, you know, going into DTAP as 
an alternative to prison or in some of the other programs.
    Mr. Mica. Now, Ryker's--again, excuse my New York 
geographic ignorance--that is a State prison or local?
    Ms. Lapp. Ryker's Island represents the local jail system 
in New York City.
    Mr. Mica. You said that went from 23,000 to 15,000?
    Ms. Lapp. 15,000. And it makes sense when you think about 
it. In New York City, prior to 1994, violent felony offenders 
were being released on early parole release from the State 
prison system, and they were put into work release programs 
when they really should not have been. They were going back to 
the communities. They were recidivating. The police officers 
just continued to re-arrest them. The prosecutors were re-
prosecuting them. They would go back to State prison, and we 
would release them again.
    All that changed with what Mayor Giuliani did in the city 
and what Governor Pataki did in the State. Mayor Giuliani said, 
I am going to arrest everybody that is breaking the law, and I 
want tough State prison sentences for violent felony offenders. 
In concert, Governor Pataki passed a truth in sentencing scheme 
for all violent felons. They do not get out early. They are 
being held behind bars. But the non-violent offenders are being 
screened appropriately.
    It is actually quite a success in New York State that very 
few people know about. We have talked about it. I have spoken 
to many, many people about it, and we have had people from 
other States come in to see how we have worked in concert with 
programs like District Attorney Hynes' program, tough law 
enforcement by Mayor Giuliani, and Governor Pataki with his 
truth in sentencing, holding the violent felony offenders 
behind bars.
    One of the things I would just like to quote and synopsize 
as a success: Prior to Governor Pataki, work release and--
violent felony offenders could go into work release, which 
allows them to go into the communities. We stopped that, and 
Governor Pataki changed that in 1995, and said no violent 
felons can go into work release. That is a privilege that 
should only be limited to non-violent offenders.
    We reduced the work release participants group by about 32 
percent, and we saw a 90 percent drop in violent felony 
offenses committed by work release inmates. That synopsizes--
and it is just plain common sense. Keep the violent felons 
behind bars and the non-violent felons with violent criminal 
histories behind bars. Give non-violent offenders who want 
treatment that opportunity like this young man here. Give them 
a chance. If they succeed, then we can see the success--more 
success stories like this. If they don't want to deal with 
their problem, we have to send them to prison because I do not 
advocate, nor does Governor Pataki or Mayor Giuliani advocate, 
putting them back in the community. They are just going to prey 
on their neighbors.
    Mr. Mica. One other point. We are seeing now, an attack on 
the Federal minimum mandatory, and we have a certain class of 
offenders at the Federal level. They are going after, as I 
understand it from Mr. Constantine's testimony, Barry McCaffrey 
and others, they are going after the trafficker, the big 
dealer, the big-time dealer, the repeat felony offender. If you 
look at a study of who is in the Federal prison population--and 
we are going to explore that a little bit further--you have 
some pretty tough cookies who have been involved in some 
serious felony offenses, in most cases repeat.
    You wouldn't then advocate changing our minimum mandatory?
    Mr. Hynes. No, but that doesn't----
    Mr. Mica. At the Federal level.
    Mr. Hynes. Sure, but it doesn't deal with the historic 
problem. You know, drugs as something affecting society didn't 
happen over a weekend. It took a long time for it to catch on. 
And there has to be a reduction in demand, and if we are not 
allowed or we can't corral the demand, we are always going to 
have the hard-core drug sellers down to the low-level people 
who are committing crime.
    The reduction in demand, I think, should be a primary goal 
of this country, and, you know, interdiction has not worked. I 
wouldn't do away with interdiction, but interdiction is not 
something that has worked. I think you have to expand the 
alternatives for treatment. That is the only way you can deal 
with demand as I see it.
    Mr. Mica. I have to disagree with you on the interdiction, 
but that is--since we abolished interdiction----
    Mr. Hynes. No, I wouldn't abolish it. I am just saying it 
hasn't worked terribly effectively.
    Mr. Mica. Yes, well, I would disagree with that, too, 
because we basically at the Federal level abolished 
interdiction in 1994 and 1995, and that is why you are seeing 
this incredible supply coming in now--not that interdiction is 
the key. I believe you start in the source countries. But that 
doesn't answer it, either, because if you look at 
methamphetamine, people can get the recipe off the Internet and 
cook it in their kitchen, and we still have a hell of a----
    Mr. Hynes. It is----
    Mr. Mica. It is a combination----
    Mr. Hynes. It is a cultural thing that has to be dealt 
with, and we allowed it to become part of our culture.
    Mr. Mica. Let me see. Mr. Cummings.
    Mr. Cummings. Thank you. As I am listening to you all, 
everything you are saying just makes sense. And I was thinking 
how what happens so often is we get so caught up in which party 
you are in that we miss the boat. I mean, we just miss it. I 
have got to give you credit, what you are doing makes sense.
    I think that in the African American community, there is a 
concern that many--just a disproportionate number of African 
Americans are being literally warehoused in prisons. That is 
one piece of it. But there is another piece, too, and that is 
that in my district, which is predominantly African American, 
folk want people to be punished for violent offenses, there is 
no doubt about it. I mean, I have been in Congress only 3\1/2\ 
years, but in politics, in elected office for 20, and I have 
seen it. Because African American people are so much 
victimized--and I am not saying other people aren't, but I am 
just saying I know we are.
    So it makes sense, Ms. Lapp, it makes sense to treat the 
violent offenders the way they are treated. And you said 
something that kind of confused me. You said that when you 
stopped allowing violent offenders and those with a history of 
violent offending, your work release offenses, violent 
offenses--is it offenses or violent offenses?
    Ms. Lapp. All violent offenses committed by work release 
inmates.
    Mr. Cummings. Work release inmates went down----
    Ms. Lapp. Ninety percent.
    Mr. Cummings. Ninety percent. So basically, you have 
created a situation where you have no violent offenders in your 
midst unless they commit it while they are on work release. Is 
that right? Does that make sense?
    Ms. Lapp. Well, I think what----
    Mr. Cummings. I mean, I know they are kicked out of the 
program if they do it on work release, but I am just saying 
basically, what you have, based upon that, is that when these 
guys go out today there should be no violent offenders in----
    Ms. Lapp. In the work release program.
    Mr. Cummings. In the work release program. And that makes a 
lot of sense.
    On another matter--I am sorry. I forgot your name.
    Mr. Hynes. Mr. Cohen.
    Mr. Cohen. My name is Frederick Cohen.
    Mr. Cummings. Mr. Cohen. Something that Mr. Cohen said, and 
I just wonder how this affects your report. And I have seen 
this to be true, too. You will get people who are using, and in 
order to maintain their habit, they have got to figure out what 
to do. They may have done some petty larceny, robbed a few 
people, and then they get to a point where they are saying, 
well, I mean, what else can I do? So then they begin to sell or 
they have been selling for a while. So maybe they have been 
arrested one or two times, three times for possession. And then 
they finally get caught doing something like robbing somebody.
    I was just trying to figure out, when you were talking 
about your statistics, the ones that the chairman was impressed 
with, which I am impressed with, too, about who is arrested and 
how long--you know, who is in your prisons, how is that--I 
mean, how does that play out? Are you following my question? In 
other words, you have people who--you can't even put your 
finger on how many people fall into that category. In other 
words, they have been doing--they have been using drugs for 
years, arrested say three or four times for possession, and 
they have been committing violent offenses for years. But now 
finally they get caught. So I am just trying to figure out how 
do you--how does that play into your analysis, if at all?
    Ms. Lapp. Is your question how do we address someone whose 
violent offense was fueled because of their drug habit?
    Mr. Cummings. Yes.
    Ms. Lapp. Well, I think once an offender starts committing 
violent acts against other members of society, we have to 
separate that person from someone who repeats a drug offense.
    Mr. Hynes. We don't accept them in our program.
    Ms. Lapp. They will not go into the DTAP program. 
Obviously, when they get into prison and violent felony 
offenders--our laws are very tough with regard to that. We have 
increased the sentences fairly dramatically. We put them in 
prison drug treatment, and in New York State, ours has gone up 
in the last 3 years. The participants have gone up about 27 
percent, 28 percent now. So we are pretty aggressive in New 
York State in terms of once--if you are a violent felony 
offender you go into prison. But if your underlying problem was 
substance abuse, we are going to put you in a substance abuse 
program while you are in prison and continue that once you are 
released on parole after you have served your definite period 
of imprisonment.
    It is a difficult thing. Once someone starts engaging in 
violent offenses because of their drug habit, we as responsible 
government officials, need to make sure that those people are 
punished appropriately. And that is why the district attorney 
doesn't allow them to go into even the DTAP program.
    Mr. Cummings. Well, it just seems to me that if the program 
is all that you all said it is--and I have no reason to doubt 
it--it seems like every State would be doing something like 
this. I mean, can you help me with what the arguments are 
against it? I am just curious. It makes sense.
    Ms. Broderick. In Arizona, our district attorney in 
Maricopa County has a very similar program called ``Do Drugs, 
Do Time,'' and it is exactly modeled after the program in 
Brooklyn. There are a lot of district attorneys. They may have 
different names for those programs, but they all are 
prosecutorial where they make the selection, they do the 
screening, they offer the diversion, you complete that and you 
basically are able to do away with your offense.
    Mr. Hynes. Mr. Cummings, this is new. You know, I mean, 12 
years ago you wouldn't want to talk about this. This is new. 
But we did it in Brooklyn because we had no choice. We were in 
a crisis. You know, you talked about seeing those young men in 
a stupor. They were on my block, too. They were mugging people 
on my block. My house was burglarized four times in 5 years, 
and one of my graduates was one of the burglars before he went 
into my program.
    So, I mean, this is new, and it has taken a long time. As I 
mentioned to Ms. Sweren coming over here, and Mr. Cohen, this 
is the first time I have been called before a congressional 
committee in 10 years on this program. And it does make perfect 
sense. And I will tell you, of the 62 district attorneys, 
apropos of your mention about political parties, of the 62 
district attorneys in my State, the vast majority are 
conservative Republican. They would buy into this program in a 
minute if we could get the funding. But the Governor, who has 
been pushing the program to get money from the legislation, has 
had this constant fight with the legislature. So, you know, Mr. 
Barr didn't invite it, but I am certainly going to send 
something on to him, of course, through you, Mr. Chairman, to 
try and get some additional funding because it does make sense. 
It is a perfectly appropriate approach. For the violent people, 
no questions asked, you go to jail--you know, don't pass go. 
But if you are someone like Frederick Cohen, you give them a 
shot. And he is just one of the many, many examples of why this 
program works so well.
    Mr. Cummings. What I hear, I have never--and I am sure that 
there are probably similar statistics somewhere in the United 
States. I have never heard those kinds of statistics with 
regard to jail cells and who occupies them and a reduction of 
the drug--I mean, how did you put it, Ms. Lapp? In other words, 
you all, you say you still have the 70,000----
    Ms. Lapp. Our overall population is still 70,000. The mix 
is starting to shift. Over 15 years, it went from 80 to 100 to 
34,000 non-violent offenders in our system, of which most of 
them are drug offenders. And now that has shifted. At the same 
time, let me underscore that New York State's crime declined, 
went down 28 percent, which is four times the national average, 
and we are the safest we have ever been since 1960. All those 
things indicate that New York State is doing something very 
interesting, and obviously right, which was one of the reasons 
why District Attorney Hynes and I, when we received the 
invitation from Congressman Mica's office to be here today, we 
jumped at the chance because we have a lot to say, we have a 
lot to show. And we think that this is a recipe for success. 
Obviously, we still have our problems, but working together 
with the local police, with prosecutors, courts, the State 
government and the State legislature in passing laws, that is 
how all this has changed, and it has been a lot of 
coordination.
    I can recall the days when the mayor took office and he 
said we are going to arrest every drug dealer and every drug 
possessor and every quality-of-life offender in New York City. 
And I sat down with people like District Attorney Hynes and 
said I don't know how we are going to handle it. But we did 
because we coordinated everything.
    Mr. Hynes. It would have been more helpful if they gave us 
more money, Mr. Cummings.
    Mr. Cummings. The last question, Mr. Chairman. It does have 
to be--you have to have both sides of this thing, though. You 
know, I am just thinking, you got to have that toughness on the 
violence, but you also have got to have this treatment and give 
it a chance. And I guess it is that combination, like a one-two 
situation, that helps it to work so that I guess it does free 
up funds on one end, and I guess those funds don't necessarily 
flow back, but the treatment----
    Ms. Lapp. No, not as much as the district attorney would 
like.
    Mr. Cummings. I am sorry?
    Ms. Lapp. Not as much as the district attorney would like.
    Mr. Cummings. Yes. Well, you would be in great shape, 
wouldn't you? The money that you save in the end, if that came 
back to the other side. That is all right. You don't have to 
comment.
    Mr. Hynes. OK. Thank you, sir.
    Mr. Cummings. Thank you very much. You all have been very, 
very helpful.
    Mr. Mica. I look forward to working with you in getting 
more of that money into the system. I know where there is $120 
million to start with, not counting what resources are used by 
you to apply for this Federal largesse.
    Mr. Ose.
    Mr. Ose. Before I venture into my few items, I think that 
my friend from Maryland has come up with an idea. He only 
touched on it very briefly, and that is perhaps to put some 
sort of an incentive program to work where a portion of the 
funds saved go back to the agency that saved them. And I think 
that is well worth exploring.
    One of the things that--going back to my comment about 
never leaving a charge unanswered that you disagree with, Ms. 
Lapp, you have in your testimony on page 3, the first 
paragraph, at least as it relates to New York State, some 
statistics regarding who has been arrested and incarcerated 
under the current legal protocols affecting drugs. And some who 
have testified before you suggested, whether it was explicitly 
or implicitly, that we were incarcerating people for, 
``recreational use,'' ``individual use,'' and the like. And I 
just--the first paragraph kind of refutes that comment. I mean, 
87 percent of these 22,000 individuals are serving time for 
selling drugs, not for recreational use but for selling drugs. 
We don't know if they were selling to their siblings or their 
parents or their children or what have you, but they were 
selling drugs. It was a commercial transaction.
    Over 70 percent have one or more felony conviction in their 
record. Of the persons serving time for drug possession, 76 
percent were arrested for sale or intent to sell. And then they 
pled down.
    You know, one of the things we lose up here in the 
testimony is the ability to come back and say, well, now those 
down pleadings are actually the result of a higher charge being 
negotiated down.
    I wish we could have had all eight of you up here to kind 
of have a roundtable discussion, as we say in politics. I just 
want to suggest to you that this information is extremely 
valuable to me, and I appreciate you bringing it forward.
    The other aspect that I wanted, Mr. Chairman--I went 
through everybody's testimony here, and I found it very 
interesting. I started with Mr. Constantine, page 1: ``I have 
passionately believed that legalizing drugs is wrong . . .''
    Ms. Bennett in her--there is no question what she thinks. 
Her son is dead, and she obviously believes it is wrong.
    Mr. MacCoun, on page 7, ``Legalization is a very risky 
strategy for reducing drug-related harm.''
    Sheriff Glasscock, ``[My] experiences have clearly 
demonstrated to me that this Nation should not be considering 
legalizing drugs . . .''
    District Attorney Hynes, ``I believe it would be a terrible 
mistake to make any changes in the law that would make it 
easier for young people to have access to these poisons.''
    And then I compare that to Mr. Stroup's testimony and, Ms. 
Lapp, your comment here. Here it is, page 5: ``Wholesale repeal 
of drug laws is a simplistic and irresponsible approach to our 
country's drug problems.''
    Mr. Chairman, I am having a little trouble right now 
because we sit and receive the testimony of people whose sole 
purpose in life is to improve our community by enforcing the 
laws that are passed, and then we countenance testimony from 
individuals, organizations like NORML that, for personal 
gratification or otherwise, wish to have these poisons remain 
available in our country. And I just--I can hardly contain 
myself today.
    To you, I very much appreciate what you are doing. I mean, 
you are on the other end of the country from where I live. You 
will never have an impact on my town or my kids or my 
community. But just keep at it. We will give you every resource 
we can.
    Mr. Hynes. Thank you.
    Mr. Mica. I do want to thank the panelists. We tried to 
open this whole subject up to discussion. There is increased 
interest in so-called decriminalization, but when you talk to 
folks in New York or Arizona, you find out a little bit more of 
what is going on, the facts, so to speak. They are not all in, 
at least in Arizona, and I think the study that has been 
revealed here today from New York is interesting.
    It is incumbent on us at the Federal level that we look for 
effective legislative and administrative initiatives that will 
make a difference. Mr. Cummings' community--he and I served 
together. He was a ranking member when I chaired Civil Service, 
and he told me--I think he has 60,000--his estimate is 60,000. 
Mr. Constantine had 38,900 heroin addicts in Baltimore; the 
population is 60,000, which has adopted a more liberal 
approach, so it does raise some very serious questions about 
what we do, and that certainly has to have some cost to his 
community.
    I think we would all be better off if we could have more 
success stories liken Mr. Cohens. That is what we are looking 
for, and trying to find a route there isn't easy.
    We do appreciate your participation, your testimony. As we 
move along, we may call on you again, obviously trying to draw 
on those success stories and see where we can do a better job, 
from the Federal level, of assisting you.
    We have no further business to come before the 
subcommittee. I am going to leave the record open for 10 days 
for additional comments or additional information or questions 
that may be directed to any of the witnesses.
    There being no further business before the subcommittee 
this afternoon, I would like to thank you again for being with 
us and providing testimony.
    Mr. Hynes. Thank you very much, Mr. Chairman.
    Mr. Mica. This meeting is adjourned.
    [Whereupon, at 2:10 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
